<html>
<title> - EXAMINING THE FEDERAL ROLE TO WORK WITH COMMUNITIES TO PREVENT AND RESPOND TO GANG VIOLENCE: THE GANG ABATEMENT AND PREVENTION ACT OF 2007</title>
<body><pre>[Senate Hearing 110-444]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-444
 
  EXAMINING THE FEDERAL ROLE TO WORK WITH COMMUNITIES TO PREVENT AND 
RESPOND TO GANG VIOLENCE: THE GANG ABATEMENT AND PREVENTION ACT OF 2007

=======================================================================


                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 5, 2007

                               __________

                          Serial No. J-110-40

                               __________

         Printed for the use of the Committee on the Judiciary



                     U.S. GOVERNMENT PRINTING OFFICE

43-451 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ARLEN SPECTER, Pennsylvania
JOSEPH R. BIDEN, Jr., Delaware       ORRIN G. HATCH, Utah
HERB KOHL, Wisconsin                 CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       JEFF SESSIONS, Alabama
CHARLES E. SCHUMER, New York         LINDSEY O. GRAHAM, South Carolina
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
BENJAMIN L. CARDIN, Maryland         SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
            Bruce A. Cohen, Chief Counsel and Staff Director
      Michael O'Neill, Republican Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................     1
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................   131
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................     3

                               WITNESSES

Boxer, Hon. Barbara, a U.S. Senator from the State of California.     4
Bratton, William J., Chief of Police, Los Angeles Police 
  Department, Los Angeles, California............................     8
Croteau, Gregg, Executive Director, United Teen Equality Center, 
  Lowell, Massachusetts..........................................    23
Driskill, Boni Gayle, Wings of Protection, Modesto, California...    16
Fox, James P., District Attorney, San Mateo County, California, 
  and President-Elect, National District Attorneys Association, 
  Redwood City, California.......................................    18
Robinson, Claude A., Jr., Vice President of Youth Development 
  Programs, Uhlich Children's Advantage Network, Chicago, 
  Illinois.......................................................    20
Villaraigosa, Hon. Antonio R., Mayor, City of Los Angeles, Los 
  Angeles, California............................................     6
Word, Patrick, Detective, Gaithersburg Police Department, 
  Gaithersburg, Maryland, and Chairman, Mid-Atlantic Regional 
  Gang Investigations Network, Gaithersburg, Maryland............    25

                         QUESTIONS AND ANSWERS

Responses of Gregg Croteau to questions submitted by Senators 
  Durbin and Kennedy.............................................    34
Responses of James P. Fox to questions submitted by Senator 
  Kennedy........................................................    41
Responses of Patrick Word to questions submitted by Senator 
  Kennedy........................................................    43
Questions submitted by Senator Durbin to James P. Fox (Note: 
  Responses to the questions were not available at the time of 
  printing.).....................................................    45

                       SUBMISSIONS FOR THE RECORD

Action Network, Manolo Guillen, Founder & Chairman, San Diego, 
  California, letter.............................................    46
Advancement Project Inc., Constance L. Rice, Los Angeles, 
  California, letter.............................................    47
Association for Los Angeles Deputy Sheriffs, Inc., Steve Remige, 
  President, Monterey Park, California, letter...................    48
Bakersfield City Council, Safe Neighborhoods and Community 
  Relations Committee, Walter Williams, Stephanie Campbell, Steve 
  Perryman, DeVon Johnson, and Ann Batchelder for Bob Malouf, 
  Bakersfield, California, letter................................    49
Biane, Paul, Chairman, Board of Supervisors, County of San 
  Bernardino, San Bernardino, California, letter.................    50
Big Brothers Big Sisters, Judy Vredenburgh, President & CEO, 
  Philadelphia, Pennsylvania, letter.............................    51
Bond, Hon. James, Mayor, City of Encinitas, Encinitas, 
  California, letter.............................................    52
Boxer, Hon. Barbara, a U.S. Senator from the State of California, 
  prepared statement.............................................    53
Boys & Girls Clubs of America, Lorraine Howerton, Senior Vice 
  President, Office of Government Relations, Washington, D.C., 
  letter.........................................................    56
Bradford, Hon. Steven C., Council Member, City of Gardena, 
  Gardena, California, letter....................................    57
Bratton, William J., Chief of Police, Los Angeles Police 
  Department, Los Angeles, California, statement.................    58
Brown, Hon. Edmund G., Jr., Attorney General, Oakland, 
  California, letter.............................................    73
California District Attorneys Association, David LaBahn, 
  Executive Director, Sacramento, California, letter.............    75
California Gang Investigators Association, Wesley D. McBride, 
  Executive Director, Huntington Beach, California, letter.......    76
California Peace Officers' Association, Paul Cappitelli, 
  President, Sacramento, California, letter......................    77
California State Sheriffs' Association, Laurie Smith, President, 
  Sheriff, Santa Clara County and Robert T. Doyle, Legislative 
  Committee Chair, Sheriff, Marin County, West Sacramento, 
  California, letter.............................................    78
Childhelp, John R. Reid, Executive Director, Scottsdale, Arizona, 
  letter.........................................................    79
Citizens Against Homicide, Jan Miller, Co-Founder, Jane 
  Alexander, Co-Founder, San Anselmo, California, letter.........    80
Couso-Vasquez, Garry, Chief of Police, Montebello, Califorina, 
  letter.........................................................    81
Croteau, Gregg, Executive Director, United Teen Equality Center, 
  Lowell, Massachusetts, statement...............................    82
Driskill, Boni Gayle, Wings of Protection, Modesto, California, 
  statement......................................................    92
Delgadillo, Rockard J., City Attorney, Los Angeles, California, 
  letter.........................................................   100
Do It Now Foundation, James D. Parker, Executive Director, Tempe, 
  Arizona, letter................................................   102
Dorn, Hon. Roosevelt F., Mayor, City of Inglewood, Inglewood, 
  California, letter.............................................   103
Doty, Wendy L., Superintendent, Downey Unified School District, 
  Downey, California, letter.....................................   104
Doyle, Bob, Sheriff-Coroner, Riverside County, Riverside, 
  California, letter.............................................   105
Dumanis, Bonnie M., District Attorney of San Diego County, San 
  Diego, California, letter......................................   106
Federal Law Enforcement Officers Association, Art Gordon, 
  National President, Lewisberry, Pennsylvania, letter...........   107
Foster, Hon. Bob, Mayor, City of Long Beach, Long Beach, 
  California, letter.............................................   108
Fox, James P., District Attorney, San Mateo County, California, 
  and President-Elect, National District Attorneys Association, 
  Redwood City, California, statement............................   110
Grand Lodge, Fraternal Order of Police, Chuck Canterbury, 
  National President, Washington, D.C., letter...................   120
Grim, Arthur E., President Judge, Reading, Pennsylvania, letter..   121
Hahn, Janice, Councilwoman, City of Los Angeles, California, 
  letter.........................................................   122
Hamai, Sachi, Executive Officer, County of Los Angeles, Board of 
  Supervisors, Los Angeles, California, letter and attachment....   123
Hispanic American Police Command Officers Association, Ray Leyva, 
  National President, San Antonio, Texas, letter.................   125
International Association of Chiefs of Police, Joseph C. Carter, 
  President, Alexandria, Virginia, letter........................   126
International Association of Women Police, Amy Ramav, President, 
  Ontario Provincial Police, Operational Policy & Strategic 
  Planning Bureau, Orillia, Ontario, Canada, letter..............   127
International Union of Police Associations, AFL-CIO, Dennis 
  Slocumbe, International Vice President, Alexandria, Virginia, 
  letter.........................................................   128
Kolender, William B., Sheriff, San Diego County Sheriff's 
  Department, San Diego, California, letter......................   129
League of California Cities, Maria Alegria, President, and 
  Christopher McKenzie, Executive Director, Sacramento, 
  California, letter.............................................   130
Local Initiatives Support Corporation, Benson F. Roberts, Senior 
  Vice President for Policy and Program Development, Washington, 
  D.C., letter...................................................   133
Los Angeles County Sheriff's Department, Leroy D. Baca, Sheriff, 
  Monterey Park, California, letter..............................   135
Loveridge, Hon. Ronald O., Mayor, Riverside, California, letter..   137
Major Cities Chiefs Association, Darrel Stephens, President, 
  letter.........................................................   138
McKenna, Hon. Rob, Attorney General of Washington, Olympia, 
  Washington, letter.............................................   139
Mentor, Karen Nussle, Senior Vice President, Alexandria, 
  Virginia, letter...............................................   141
Mollner, Joe, Senior Director, Delinquency Prevention, Boys & 
  Girls Clubs of America, statement..............................   142
National Association of Police Organizations, Inc., William J. 
  Johnson, Executive Director, Washington, D.C., letter..........   148
National Association of Women Law Enforcement Executives, Laura 
  Forbes, President, Carver, Massachusetts, letter...............   149
National Black Police Association, Inc., Ronald E. Hampton, 
  Executive Director, Washington, D.C., letter...................   150
National Board of Concerns of Police Survivors, Suzie Sawyer, 
  Executive Director, Camdenton, Missouri........................   151
National Crime Prevention Council, Alfonso E. Lenhardi, President 
  and CEO, Washington, D.C., letter..............................   152
National Center for Victims of Crime, Mary Lou Leary, Executive 
  Director, Washington, D.C., letter.............................   153
National District Attorneys Association, Mathias H. Heck, Jr., 
  President, Alexandria, Virginia, letter........................   154
National Juvenile Justice & Delinquency Prevention Coalition, 
  joint letter...................................................   156
National Latino Peace Officers Association, Roy Garivey, 
  President, Las Vegas, Nevada, letter...........................   161
National League of Cities, Hon. Bart Peterson, President and 
  Mayor, Indianapolis, Indiana, letter...........................   162
National Major Gang Task Force, Edward L. Cohn, Executive 
  Director, Indianapolis, Indiana, letter........................   163
National Narcotic Officers' Associations Coalition, Ronald E. 
  Brooks, President, West Covina, California, letter.............   164
National Organization for Victim Assistance, Joseph Myers, 
  President, Alexandria, Virginia, letter........................   165
National Organization of Black Law Enforcement Executives, Jimmie 
  Dotson, President, Alexandria, Virginia, letter................   166
National Organization of Parents of Murdered Children, Inc., Dan 
  Levey, President, Cincinnati, Ohio, letter.....................   167
National Sheriffs' Association, Ted Kamatchus, President, 
  Alexandria, Virginia, letter...................................   168
National Troopers Coalition, Dennis Hallion, Chairman, 
  Washington, D.C., letter.......................................   169
Oklahoma Gang Investigators Association, Tim Hock, Vice 
  President, Lawton, Oklahoma, letter............................   170
Parks, Hon. Bernard C., Councilmember, Los Angeles City Council, 
  Los Angeles, California, letter................................   171
Passalacqua, Stephan R., Sonoma County District Attorney, Santa 
  Rosa, California, letter.......................................   173
Peace Officers Reserch Association of California, Ron Cottingham, 
  President, Sacramento, California, letter......................   174
Penrod, Gary S., Sheriff, San Bernardino County, San Bernadino, 
  California, letter.............................................   175
Points of Light Foundation, Howard H. Williams, III, Interim CEO 
  and President, Washington, D.C., letter........................   176
Pulido, Hon. Miguel A., Mayor, Santa Ana, California, letter.....   177
Rackauckas, Tony, Orange County District Attorney, Santa Ana, 
  California, letter.............................................   178
Ramos, Michael A., San Bernardino District Attorney, San 
  Bernardino, California, letter.................................   179
Reed, Hon. Chuck, Mayor, San Jose, California, letter............   180
Robinson, Claude A. Jr., Vice President of Youth Development 
  Programs, Uhlich Children's Advantage Newtwork, Chicago, 
  Illinois.......................................................   181
Robles, Darline P., Superintendent, Los Angeles County Office of 
  Education, Downey, California, letter..........................   184
Salinas City Council, Ann Camel, City Clerk, Salinas, California, 
  letter and resolution..........................................   185
Sanders, Hon. Jerry, Mayor, San Diego, California, letter........   187
Schwarzenegger, Hon. Arnold, Governor, Sacramento, California, 
  letter.........................................................   188
Sheedy, Hon. Sandy, Chair, Law and Legislation Committee, 
  Sacramento, California, letter and attachment..................   189
Totten, Gregory D., County of Ventura District Attorney, Ventura, 
  California, letter.............................................   191
Tulare County Board of Supervisors, Allen Ishida, Chairman, 
  Visalia, California, letter....................................   193
United States Conference of Mayors, Hon. Douglas Palmer, Mayor of 
  Trenton, President, Washington, D.C., letter...................   194
Villaraigosa, Hon. Antonio R., Mayor, City of Los Angeles, Los 
  Angeles, California............................................   195
Walters, Paul M., Chief of Police, Santa Ana, California, letter.   205
Walters, Thomas P., Washington Representative, San Diego County 
  Board of Supervisors, Washington, D.C., letter.................   206
Williams, Hubert, Police Foundation, Washington, D.C., letter....   207
Wood, Hon. Jim, Mayor, Oceanside, California, letter.............   208
Word, Patrick, Detective, Gaithersburg Police Department, 
  Gaithersburg, Maryland, and Chairman, Mid-Atlantic Regional 
  Gang Investigations Network, Gaithersburg, Maryland............   209


EXAMINING THE FEDERAL ROLE TO WORK WITH COMMUNITIES TO PREVENT AND 
RESPOND TO GANG VIOLENCE: THE GANG ABATEMENT AND PREVENTION ACT OF 2007

                              ----------                              


                         TUESDAY, JUNE 5, 2007

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, Pursuant to notice, at 10:02 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Dianne 
Feinstein, presiding.
    Present: Senators Feinstein, Feingold, Durbin, Whitehouse, 
and Specter.

OPENING STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM 
                    THE STATE OF CALIFORNIA

    Senator Feinstein. The meeting of the Judiciary Committee 
will come to order, and I am delighted to have Senator Specter 
here. And we have an all California panel, Senator: my 
colleague Senator Boxer; the very distinguished mayor from Los 
Angeles, Antonio Villaraigosa; and, I happen to think, an 
extraordinarily fine Chief of Police, Chief Bratton from L.A. 
What I would like to do is begin with a brief statement, ask if 
you would like to make one, then turn to Senator Boxer.
    I want to begin by thanking Chairman Leahy for scheduling 
this hearing on S. 456, the Gang Abatement and Prevention Act 
of 2007. This problem--gang violence--is one that Senator Hatch 
and I have been trying to address with Federal legislation for 
over 10 years now. I did not realize it had been so long. We 
first submitted legislation in the 104th Congress, the 105th, 
the 106th, 107th, 108th, and 109th. So it looks like we are 
finally going to be able to address this problem in this bill, 
and I am very pleased.
    Gang violence today is no longer just a big-city problem. 
Like a cancer, criminal street gangs have now spread throughout 
the United States, destroying neighborhoods, crippling 
families, and killing innocent people as they expand. Before 
1990, the number of cities and counties affected by gangs had 
grown by less than 200 jurisdictions in both the 1970s and the 
1980s. But gangs expanded by 675 cities and 458 counties from 
1990 to 1995, just about when Senator Boxer and I came to the 
Senate. And today the FBI says gangs affect 2,500 jurisdictions 
in this country.
    In 1991, the National Youth Information Center said there 
were 4,881 gangs in America. Today there are at least 30,000 
different street gangs. In 1991, the National Young Information 
Center said there were 250,000 gang members nationally. Today 
the FBI estimates there are at least 800,000 active gang 
members.
    Let me put this 800,000 number in its proper perspective. 
Los Angeles City Attorney Rocky Delgadillo recently noted in 
his letter endorsing our bill that, ``The Department of Justice 
tells us there are only 708,000 State and local police 
officers. We are outmanned, outgunned, and in the midst of a 
national crisis.'' In short, cities and States need our help. 
Our gang problem is large and growing--a national problem that 
requires a national solution.
    Gang members do not simply commit violent crimes, but they 
also commit them more frequently. In two cities--Los Angeles 
and Chicago, arguably the most gang-populated cities in the 
United States--over half of the combined nearly 1,000 homicides 
a year were attributed to gangs in 2004. Of the remaining 171 
cities, approximately one-fourth of all homicides are 
considered gang related. And across the United States, the 
number of gang homicides reported by cities with populations of 
100,000 or more increased 34 percent from 1999 to 2003. And 
that was before the recent surge in violent crime that we have 
seen nationwide in the past 2 years.
    A few weeks ago, at a hearing on violent crime before 
Chairman Biden's Subcommittee on Crime and Drugs, every witness 
present talked about gangs as a contributing factor in this 
violent crime upsurge. Several of the witnesses expressly 
endorsed our bill, and today, as we hold a specific hearing on 
the bill itself, I am pleased that several other witnesses will 
also call for its passage.
    S. 456, the Gang Abatement and Prevention Act, is tough on 
violent gang crimes, but it is also tough on the root causes of 
that gang crime. Through a comprehensive approach that will 
combine suppression, prevention, and intervention efforts, the 
bill would adopt new Federal criminal laws and tougher 
penalties against those who commit gang-related and other 
violent crimes. It would authorize hundreds of millions of 
dollars for new gang-related prosecutions and to bolster 
witness protection in cases involving violence. And it would 
identify successful community programs and invest hundreds of 
millions of dollars in schools and civic and religious 
organizations to encourage young people to walk away from gangs 
and to provide positive alternative so they never join.
    I am very pleased to see that the bill has received support 
from dozens of organizations: United States Conference of 
Mayors, Fraternal Order of Police, International Association of 
Chiefs of Police, National Sheriffs Association, and on and on. 
I have pages listed here, which I will not go into, but over 
the 10 years that we have been fighting for this bill, I think 
it has become much better known, and we have also negotiated 
with several members of this Committee and others. And so I 
think today we have a much better bill, Senator Specter, before 
the body of the Senate. So I look forward to rapid passage, 
hopefully, by this Subcommittee and Committee and on the floor 
of the Senate.
    If I might turn it over to you, and thank you for your 
interest in this very, very much.

STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM THE STATE 
                        OF PENNSYLVANIA

    Senator Specter. Well, thank you, Madam Chairman, for your 
leadership on this important issue. I have seen the problem of 
juvenile gangs since my days at district attorney of 
Philadelphia many years ago, and the problem has increased in 
intensity because there has been insufficient attention paid to 
it. I thank you for coming to Philadelphia last year for the 
hearing which we had there on the issue, and I sent for a copy 
of the Philadelphia Inquirer to demonstrate the problem which 
is in Pennsylvania's biggest city: ``Philadelphia leads big 
cities in murder rate.'' I am sorry that we have that 
distinction, but that is the brutal fact of life.
    It is very appropriate for the Federal Government to play a 
more active role in this issue, and the legislation which we 
are discussing here today is a big step along the way. I note 
that last week the Department of Justice initiated some action 
in New Orleans, a special problem because of the impact of 
Katrina. But it is an issue around the country. And what some 
of us have been searching for on an immediate answer, we talk 
about the underlying causes of crime; we talk about education 
and housing and job training. And it is a seemingly intractable 
problem, but we have to continue to battle it.
    One thought is for a short-term answer would be to try to 
recruit mentors. We find so many of these gang members and 
other juvenile offenders come from broken homes--no father, a 
working mother, no parental guidance, no role models. And the 
thought has been that if we could identify the at-risk youth 
and pair them with an adult mentor to provide some immediate 
guidance, that might provide some answer.
    And following the hearing with Senator Feinstein, Senator 
Biden, and Governor Rendell and I attended in Philadelphia last 
year, we have held similar hearings across the State, in 
Pittsburgh and Allentown and Lancaster and Harrisburg, trying 
to bring in the United States Attorneys, the Drug Enforcement 
Agency, Alcohol, Tobacco, and Firearms, FBI, in addition to the 
State police. But the Federal Government needs to play a role 
in this important subject, and I think that this legislation, 
Senator Feinstein, is a big step forward. So I am pleased to 
join you.
    I am sorry to see that there are not more members of our 
Committee here today, but that is not atypical because there is 
so much activity in the Senate--really on any day, but today is 
an especially tough day. Senator Feinstein and I just came from 
a lengthy meeting on immigration, and we are trying to take 
some important steps on that subject today. That bears on this 
issue as well.
    So I will stay as long as I can, Madam Chairwoman.
    Senator Feinstein. Thank you very much, Senator. I 
appreciate it and I appreciate your support and your concern. 
And I remember well and very much enjoyed my time in 
Philadelphia. It was a very good hearing.
    Senator Specter. You will have to come back.
    Senator Feinstein. I would like to. Thank you.
    Senator Specter. I was in Los Angeles last week.
    Senator Feinstein. Thank you very much. Reciprocity.
    Now I would like to call on my friend and colleague and 
welcome her here, Senator Barbara Boxer.

STATEMENT OF HON. BARBARA BOXER, A U.S. SENATOR FROM THE STATE 
                         OF CALIFORNIA

    Senator Boxer. Thank you, Madam Chair, for the privilege of 
participating in this important hearing, and I commend you for 
your hard work and leadership on this issue for so many years. 
And I am proud to join you as a cosponsor of your bill, and I 
am proud because I believe this bill is balanced. It combines 
toughness, prevention, punishment, help to beleaguered 
communities--all those elements that I think are so crucial. 
And I also want to join you in welcoming my friend Mayor 
Antonio Villaraigosa and my friend Chief William Bratton.
    Both of these gentlemen, as you and I well know, worked 
tirelessly on the issue before us today--gang violence. They 
confront it every single day, and I want them to know how much 
we appreciate their efforts and how much we hope to be able to 
help you.
    Those of us from California, Madam Chair, the mayor, the 
chief, and I, know all too well, unfortunately, the damage that 
gang violence has done to our communities and our families, 
particularly our children. And while I will put the balance of 
my statement into the record, I want to share with you a story 
that really catapulted me into this issue after my friend 
Senator Feinstein had shown such leadership, and this occurred 
in 2005.
    On November 13, 2005, 11-year-old Mynisha Crenshaw sat down 
to have dinner with her 14-year-old sister and their family in 
their San Bernardino, California, apartment building. And I 
just want us to all think about that, sitting down with our 
families to have dinner. That was very unremarkable. A gang-
related dispute broke out in the neighborhood, and gunfire 
sprayed the apartment building, killing young Mynisha, 11-year-
old Mynisha, innocent, seriously wounding her 14-year-old 
sister who, thank goodness, has recovered. But imagine the fear 
and anguish the family and the community felt because of this 
tragedy. A young girl full of hope and promise sitting down for 
dinner as part of a family, dead because of this senseless 
violence.
    When I went into the community, San Bernardino, after that 
fact, I saw something I had rarely seen before. The community 
was just up in arms together and saying, ``This is it. This 
cannot happen again.'' Well, 4 months later, it did happen 
again. Two innocent men were killed in gang-related crossfire 
in downtown San Bernardino.
    Well, believe me, Senator Feinstein, you and I know exactly 
what happened in San Bernardino. It is a very high-intensity 
gang area right now, and I wrote a bill with you called 
``Mynisha's Law.'' And it is a very simple concept, and I am so 
happy it has been incorporated into your larger bill because I 
think it does add something. It is complementary, and I am so 
happy your staff worked so hard to get this done.
    What we simply say is that there should be an interagency 
task force from the various areas of Government that provide 
help to these communities but do not ever talk to each other 
about it--the Department of Justice, Education, Labor, HHS, and 
HUD. And they will coordinate and work with your coordinating 
committee that you have on the ground already in the bill to 
make sure that what is delivered to these communities, you 
know, is really the right medicine.
    I will give you just one example, and then I will wind up.
    For example, the Department of Education runs the 21st 
Century Community Learning Centers, and Mayor Villaraigosa and 
I and, I know, Senator Feinstein, you have been strong 
supporters of after-school programs. They really do work. They 
keep these kids out of trouble. These high-intensity gang areas 
need more funds, so that would be part of the mix. Health and 
Human Services, they have the Healthy Start program, which gets 
in really early. These are just examples. Community development 
block grants come out of HUD, and Job Corps comes out of Labor.
    So what we are going to do is not reinvent the wheel but 
have people who know what they are doing, and what I liked 
about your staff's and your recommendation to us is--originally 
we had the task force in Washington. You insisted, and I think 
rightly so, that they ought to be people on the ground from the 
community so we really have an onsite team working with the 
rest of the bill, as you have set it up.
    So at the end of the day, I would ask unanimous consent to 
put the rest of my statement into the record. I just want to 
again say thank you. This is a good bill. I am going to work 
with Senator Reid to get this bill to the floor. We need this 
bill. It is a long time coming. It is going to make a 
difference. And I am so happy that Senator Specter is here. I 
know the numbers of things he has to do. I am so happy that 
Senator Whitehouse is here and that Senator Hatch is so 
supportive.
    So, Madam Chair, you just call on me. Sometimes back home 
we say Senator Feinstein and I make a good team. She talks to 
the tall Senators, I talk to the short Senators. Whatever you 
need from me, I will be there for you on this very important 
legislation.
    Thank you very much.
    Senator Feinstein. Thank you very much. I appreciate your 
comments. I appreciate your cosponsorship. I appreciate your 
friendship. Thank you so much.
    [The prepared statement of Senator Boxer appears as a 
submission for the record.]
    Senator Feinstein. We will now move on, if we might. 
Senator Whitehouse has joined us, and I would like to introduce 
now, I think, one of the finest mayors in America. He runs a 
very big city--Los Angeles--Mayor Antonio Villaraigosa. He is 
the 41st mayor of the city. He was elected in 2005 after 
serving 2 years on the Los Angeles City Council. Before that, 
he served in the California State Assembly, where he was 
elected by his colleagues as the first Assembly Speaker from 
Los Angeles in 25 years. The reason is because, I think, San 
Francisco had a bit of a monopoly on the speakership, but you 
certainly--
    Mr. Villaraigosa. A century.
    Senator Feinstein. Yes, exactly.
    He was raised in East Los Angeles, was the oldest of four 
children, raised by a single mother. He is the first Latino 
mayor of Los Angeles since 1872 and was named as one of 
America's 25 Most Influential Latinos by Time Magazine. He also 
has been named one of America's best leaders by United States 
News & World Report.
    Mr. Mayor, both Barbara and I know what it is like to go 
back and forth, the time loss. We thank you and Chief Bratton 
so much for coming back for this hearing. I know it is a bit of 
a hassle, but just know your visit is very much appreciated. 
Thank you for coming.

 STATEMENT OF HON. ANTONIO R. VILLARAIGOSA, MAYOR, CITY OF LOS 
                ANGELES, LOS ANGELES, CALIFORNIA

    Mayor Villaraigosa. Well, thank you, Senator Feinstein, for 
your leadership on this issue over the last decade that you 
have been working on this bill and for bringing this issue to 
the forefront. And, Ranking Member Specter, it is good to see 
you in good health and to see you again. We had an opportunity 
to talk last year about this issue, and we had talked about the 
idea of me coming to speak here, and I want to thank you for 
being here. And, Senator Whitehouse, although we have not been 
able to meet previously, it is good to have you here as well.
    Thank you for holding this hearing on the issue of 
preventing and confronting gang violence. I too, along with 
Senator Boxer, who I was on the plane with last evening, have 
some chilling stories to share with you. One of them was on 
December 20th of last year. I received a call from my security 
detail informing me that there had been a shooting in Central 
Los Angeles. At about 8:30 that night, two gang members--one 
barely 20 years old--were seen driving down a quiet residential 
street, like many in the city of Los Angeles. Neighbors heard 
the sound of gunfire. Shots rang from the car toward a nearby 
house. The car sped off. But one stray bullet pierced the front 
window of a neighboring apartment. That bullet crossed the 
living room and penetrated a wall into the kitchen, where stood 
a lovely 9-year-old girl. Her name was Charupha Wongwisetsiri. 
The next day I met and grieved with Charupha's mother. She told 
me she had brought her daughter to Los Angeles, to America from 
Thailand, on the promise of a better education and a brighter 
future. Little Charupha died a few days later in the hospital.
    This was just a week after 14-year-old Cheryl Green, a 
young girl with her whole future in front of her, was standing 
on a corner in her own neighborhood in the middle of the day 
with a group of youngsters around the same age, when gang 
members walked up to her, shot her in cold blood, for the 
simple fact that she was African American.
    Honorable members, innocent people lose their lives to gang 
violence every day in every corner of this country. Gang 
violence affects neighborhoods from Phoenix to Boston, from 
Milwaukee to New York, from Columbia to Chicago, from Houston 
to San Diego and Philadelphia.
    Since 2001, more than 4,000 people have lost their lives to 
gang violence in California alone. More than 4,000 people. Hear 
that for a moment. That is more American lives than we have 
lost in the war in Iraq. That is more American lives than we 
lost on September 11th. Gang violence is a problem of national 
scope, and it must be confronted on a national scale.
    You are all too aware that crime is on the rise across the 
country. Homicides and robberies are up double digits since 
2004. And street gangs are becoming increasingly responsible 
for violent crime in our urban centers.
    In Los Angeles, violent gangs were responsible for a 
majority of the homicides, about 56 percent of all homicides; 
70 percent of the gun violence in 2006 was perpetrated by 
gangs. In order to reduce the crime in our urban centers, we 
must confront this issue.
    I am very fortunate, as both Senator Feinstein and Senator 
Boxer have mentioned, to have Chief Bratton. I believe Chief 
Bratton is one of the most experienced leaders on this issue of 
gang and gun violence. He knows full well that cities like ours 
have limited resources to achieve the maximum reduction in 
crime. We need to collaborate and work with the Federal 
Government to address this issue, and so your leadership on 
this issue is very important.
    The chief also knows and is the first to tell you that we 
simply cannot arrest our way out of the problem of gang 
violence. Ranking Member Specter spoke of the issue of mentors. 
I can tell you, as a young boy growing up on the east side of 
Los Angeles, the fact that I had a mentor--and I was an at-risk 
individual. I grew up in a home with domestic violence and 
alcoholism. Many of the kids who are involved in gangs and gun 
violence come from broken homes, come from homes filled with 
drugs, and oftentimes do not have the support that we need. And 
so in order to reduce gang violence for the long term, we must, 
as Senator Boxer said, address this issue in a comprehensive 
way. That means a significant and sustained investment in 
prevention, intervention, and re-entry, in addition to enhanced 
suppression.
    That is why I am here to voice my strong support for 
Senator Feinstein's legislation. The Gang Abatement and 
Prevention Act creates a collaborative and shared environment 
for law enforcement to work together on gang crime. It 
recognizes the wide consensus of gang experts and academics and 
local officials that the only sustainable and effective anti-
gang strategy must include elements of gang prevention, 
intervention, suppression, and community-based re-entry.
    To implement this approach, we need the necessary resources 
for a comprehensive strategy. I can tell you that we are 
growing our police department. We are the most under-policed 
big city in the United States of America, on a per capita basis 
the safest big city in the United States. The numbers of 
homicides are down in Los Angeles to levels that we have not 
seen since I was a 3-year-old boy in 1956. And yet last year 
gang crime was up, while in the last few months, because of a 
strategy that the chief and I have implemented, it has gone 
down. We still, in addition to police officers, need the 
funding that I just mentioned.
    I have submitted for the record our gang reduction 
strategy. It is a strategy of working with the Federal 
Government, with a Justice Department grant, that in an area of 
the city where crime has gone up 30 percent, in this area, we 
are focusing on suppression, prevention, intervention, re-
entry, family preservation, jobs, tattoo removal, a whole 
amalgam of programs, gang crime is down 40 percent. So we think 
this strategy works. We are here in support of this 
legislation. We think it is important to be tough on crime, but 
equally tough on the root causes of crime as well. We think 
this legislation does that.
    Thank you very much.
    [The prepared statement of Mayor Villaraigosa appears as a 
submission for the record.]
    Senator Feinstein. Thank you very much, Mr. Mayor, and I 
want to thank you because you have taken a very active interest 
in this area. I think you have put forward your own programs. I 
know they are working, and I really think you are to be 
commended. So thank you for being here.
    Senator Boxer. Senator Feinstein, may I be excused? I have 
another hearing.
    Senator Feinstein. Yes. Thank you again very much. Thank 
you, Barbara.
    Since October 2002, William J. Bratton has served as the 
54th Chief of the Los Angeles Police Department. That is the 
third largest police department in the United States. He 
manages 9,000 sworn officers. He is the only person ever to 
serve as chief executive of both LAPD and the New York Police 
Department. He has developed an international reputation for 
re-engineering police departments and bringing down crime.
    As chief of the New York City Transit Police, Boston Police 
Commissioner, and then New York City Police Commissioner, he 
cut crime in all three posts, including the largest crime 
declines in New York City's history.
    Chief, it is a great pleasure to welcome you here, and we 
look forward to hearing from you.

 STATEMENT OF WILLIAM J. BRATTON, CHIEF OF POLICE, LOS ANGELES 
           POLICE DEPARTMENT, LOS ANGELES, CALIFORNIA

    Chief Bratton. Thank you, Senator. It is a pleasure to be 
here with Mayor Villaraigosa to speak on this very important 
issue. I have previously submitted written testimony, and I 
will paraphrase some of that.
    I am here in support of the Gang Abatement and Prevention 
Act of 2007. I thank you and your colleagues, Senator 
Whitehouse and Senator Specter, for the opportunity to appear 
here this morning with my mayor.
    In the 1990s, we got it right in this country. The Congress 
of the United States supported the omnibus crime bill, and in 
the 1990s, we began to reduce crime dramatically after the peak 
year of 1990 when it reached its highest level ever. Overall, 
crime in the United States in those years went down by between 
30 and 40 percent, including homicides.
    But after the events of 9/11, the Federal Government, like 
a one-eyed Cyclops, basically focuses its attention now on 
terrorism, and in many ways abandoned the partnership with 
local communities and States in fighting local crime. Your 
bill--and I would expand on Senator Boxer's comment. This is 
not just a good bill. It is a great bill--a great bill not only 
in its content and its focus on suppression, intervention, and 
prevention--and you need all three, as Mayor Villaraigosa has 
indicated, that American police chiefs and mayors have known 
for a long time. You cannot arrest your way out of this 
problem. Suppression is, in fact, the first and foremost 
ingredient, but you need to add to the mix prevention and 
intervention, and your bill certainly allocates resources to 
begin that process.
    But after the events of 9/11, the Federal partnership was 
frayed. The additional officers that were hired in the 1990s by 
and large went away. The 8- to 10-percent reduction in the size 
of American police forces over the last 5 years has mirrored 
closely the increase in the 1990s. We have seen also that the 
new insidious element of crime that was evident in Los Angeles, 
Chicago, and some other cities in the 1990s gang crime has now 
spread throughout the United States and, in fact, Chicago and 
L.A., we are the source of much of that spread of gang crime, 
unfortunately, to the rest of the country.
    But in our city, as the mayor has indicated, we believe 
that we know what to do about it, and what it takes is 
resources and it takes partnership--resources in terms of not 
only additional police officers appropriately focused, but 
partnership with our Federal agencies, and we believe the 
partnerships we have in Los Angeles serve as a national model--
FBI, DEA, ATF, and that partnership has been expanded on to the 
war on terrorism as well as trying to deal with the gang crime 
problem in L.A.
    As of this morning in Los Angeles, our overall homicides 
are down by 50 versus the same period of time last year. That 
is a 25-percent reduction. So we are having some success. But 
where we are still need to do more is in the area of prevention 
and intervention, because even as we make the city streets 
safer, to keep them that way we have to find alternatives for 
our young people. And the mayor's testimony, supported by mine, 
speaks to a number of the initiatives that we have underway in 
Los Angeles that are helping us out, and helping us out 
significantly.
    As the mayor indicated, you cannot arrest your way out of 
this problem, but, in fact, that is where you need to begin in 
the sense of the suppression. To that end, the organization 
that I am proud to be President of, the Police Executive 
Research Forum--and I am also a very active member in the Major 
City Chiefs of Police--2 years ago we issued a report, ``The 
Gathering Storm,'' that talked about our belief, based on what 
we were dealing with, that crime was coming back to the United 
States; the residual benefits of the investment in the 1990s 
was, in fact, wearing off; the fact that agencies like the FBI, 
which had focused most of their 13,000 agents on crime in the 
United States, were now focusing the vast majority of the 
resources on international terrorism; that that was going to 
have some impact on our abilities to fight crime. And it has.
    The FBI yesterday reported that for the second straight 
year in a row crime is up in the United States. In eight of the 
ten largest cities of the United States, homicides are up. As 
indicated by Senator Specter, Philadelphia has the dubious 
distinction of now having the highest murder rate in the 
country.
    We know what to do about this. We got it right in the 
1990s. We can get it right again in the 21st century. But it is 
essential that the Federal Government re-engage in the 
partnership that brought about the successes in the 1990s. Your 
bill begins that process. It is a necessary, essential, and 
critical first step. I applaud you and your colleagues for 
moving it forward, and I certainly wish you every success as 
you bring it to the full Congress.
    Thank you.
    [The prepared statement of Chief Bratton appears as a 
submission for the record.]
    Senator Feinstein. Thank you very much.
    Senator Specter. Madam Chair?
    Senator Feinstein. Yes, Senator, would you--
    Senator Specter. I would just like to submit a couple of 
questions for the record. I am going to have to excuse myself 
at this point. But I thank the witnesses who have come in, the 
mayor and the chief and the witnesses from San Mateo.
    Senator Feinstein. Thank you.
    Senator Specter. Very important testimony, and we 
congratulate you on your success, and Philadelphia is going to 
follow you.
    Thank you.
    Senator Feinstein. Thank you, and thank you for your 
cosponsorship. I appreciate it very much.
    Senator Specter. Glad to do it.
    Senator Feinstein. Just a quick question before we move on. 
Most people do not know that the Federal Government does not 
run prevention programs. We fund grants which go to communities 
or organizations for these programs. In your view, since your 
initiative, Mr. Mayor, and, Chief, during your tenure--you 
heard Senator Specter speak about mentoring, which is, I think, 
a great idea. It is very hard because if you have 700,000, 
800,000 gang members, it is hard to find that number of 
mentors. But which programs in Los Angeles have you found work 
the best?
    I went to Lennox School, and I watched a gang program in 
that middle school. I was very impressed with it. And I thought 
it might be interesting if you could go into what you believe 
today in Los Angeles are the most successful models.
    Mayor Villaraigosa. We are in the process currently of 
reviewing our anti-gang programs. We hope to complete that 
assessment of their performance sometime later in the year. I 
can tell you that one program, a prevention program that you 
have been very, very supportive of and sponsored budget 
augmentations in support of this, is the L.A.'s Best after-
school program, a great prevention program, an after-school 
enrichment program for kids that about 26,000 kids in Los 
Angeles are benefiting from, in a school district, however, 
with 780,000 kids. So a long way--
    Senator Feinstein. Explain how it works.
    Mayor Villaraigosa. It is essentially an after-school 
program of enrichment. It has academics, music, dance, you 
know, a cultural component as well as tutoring. Kids 
participate--not all the kids in the school because the program 
is not big enough, but a group of kids who qualify participate 
in this program. It has been very, very successful. There has 
actually been a longitudinal study by UCLA that has 
demonstrated the positive impacts of this program for 
graduation later on. And there are other programs, Homeboy 
Industries, Father Boyle, who I think you know, has done 
incredible work with kids. He says that nothing stops a bullet 
like a job, working with kids on family preservation issues, on 
counseling, providing skills for jobs.
    We are in the process of increasing--when I was elected 
mayor, we were doing only about 2,500 summer youth jobs. In my 
first year, we had a goal of 5,000. We passed that, got 7,500. 
This year the goal is 10,000 summer youth jobs. We are on our 
way to 13,000, we hope, by the end of the summer. Very 
important to keep kids off the streets. We have a program 
called ``Learn and Earn'' that focuses on the dropout rate and 
on the failure of young people to pass the high school exit 
exam. We train them with the Princeton Review in the morning to 
pass the exit exam, and in the afternoon we give them a job.
    So those are some programs. There are others. Again, this 
GRIP program--I think it is called Gang Reduction Improvement 
Program--is a collaboration with the Justice Department, and 
those are some of the elements.
    Senator Feinstein. Thank you.
    Chief, in your view, what community program works the best?
    Chief Bratton. I am certainly very supportive of Homeboy 
Industries, which is to my mind one of the most successful 
intervention programs; taking active gang members and trying to 
turn their lives around. Father Boyle has done a phenomenal 
job. But there are three programs within the Los Angeles Police 
Department that I would like to briefly reference.
    First is our Jeopardy program, which is an intervention 
effort to take kids who are beginning to get recruited into 
gangs, and I applaud in your bill that there is a significant 
component that basically makes it a crime to recruit young 
people into gangs, because that is where we need to stop it as 
they are going in. But Jeopardy tends to deal with those young 
people who are into a gang but not so far in that we cannot 
help to pull them out. It requires parental involvement. The 
parents have to basically come to classes with their kids. 
Something that is so often missing and allows for the 
recruitment of young people into gangs is parental involvement.
    The second program is the Explorer program. These are young 
cadets. We have about 750 of them in this program. We are going 
to double that, hopefully, over the next year. These are young 
people who for 12 Saturdays in a row come in and they are 
mentored and taught by our police officers. They wear uniforms. 
After graduation they can stay with the program until they turn 
20 years of age. They give over 100,000 hours of voluntary 
service every year back to the community, and these are young 
people who have found an alternative to the gangs.
    The third program is our Magnet Schools, in partnership 
with the Los Angeles Unified School District. We have five high 
schools in which we have approximately 1,500 young people who 
are in our program. The graduation rate of young people 
entering our high schools is about 50 percent. But in our 
Magnet School program, the graduation rate is 95 percent of 
people who enter, and the vast majority of them go on to 
college when they graduate. Last year, they received in excess 
of a million dollars in scholarships. We have police officers 
assigned to those schools full-time. They work with these kids 
every day. One day a week they wear their uniforms to school 
and mingle with their classmates. The bravery that takes in the 
Los Angeles School System to wear a Magnet School police 
uniform among their classmates is laudable.
    Those are just three of the efforts that are underway 
currently that would be expanded upon with the resources that 
your bill would provide.
    Senator Feinstein. Thank you very much.
    Senator Whitehouse, any questions?
    Senator Whitehouse. Thank you.
    First of all, welcome to you both. It is wonderful to have 
the mayor with us, and, Chief Bratton, in Providence, Rhode 
Island, we have Dean Esserman as our police chief.
    Chief Bratton. You have the best.
    Senator Whitehouse. He was an acolyte of yours and has 
brought a lot of the thinking that you brought to law 
enforcement to the city of Providence with great effect. So I 
will pass on your good regards to him. He is a close friend.
    Like many other cities, we have a fair amount of gang 
activity in Providence. We see it starting very early, and I 
wanted to ask at what school level do you see the risk of gang 
participation and influence really becoming very acute.
    Chief Bratton. The mayor mentioned the L.A.'s Best program 
that he is so intimately involved with. He and I have actually 
had a fundraising event this past Sunday and raised almost $1 
million for that program. It is all privately funded. Those are 
elementary school kids.
    We are finding, as we get more involved with this and the 
evolution of the gangs over the last 15 years, is that it is 
increasingly affecting younger people. You literally have to 
start trying to get them at the elementary school age, keep 
them engaged, off the streets, in an environment where there is 
mentoring, and then move right up the cycle. In Los Angeles, we 
have got truly a career ladder, if you will, for lack of a 
better term. Get them into L.A.'s Best, see if you can then 
move them into our Explorer programs, see if you can move them 
into the Magnet School programs.
    The mayor, in very tight budget years the 2 years he has 
been mayor, has been very actively supportive of our student 
worker program so that when the kids graduate high school, 
these Magnet Schools, they can find employment in the police 
department or they can be funded to go on to college and then 
hopefully become police officers. Over 20 of our police 
officers have gone through that series of steps, if you will, 
where you provide a safe passage through those very troubling 
years from elementary school on up.
    So elementary school, it is like so many other things, you 
cannot start early enough.
    Senator Whitehouse. Mr. Mayor?
    Mayor Villaraigosa. Let me just mention, Senator, that we 
hear from teachers that as young as 8 years old they start 
seeing some of the at-risk behavior in a lot of these kids. So 
the chief is right that the elementary school level is where 
you begin to see some of the manifestations of kids who are at 
risk and maybe moving into gangs.
    Just to set the record straight, I said ``GRIP.'' It is 
``grip,'' but it is G-R-P, Gang Reduction Program.
    Senator Whitehouse. Chief, the HIGAA program, High-
Intensity Gang Activity Areas, that Senator Feinstein has 
proposed seemed to be modeled on the HIDTA, the High-Intensity 
Drug Trafficking Area programs that I helped administer as U.S. 
Attorney in Rhode Island. What was your experience from the 
police side with the HIDTA programs?
    Chief Bratton. HIDTA is a great initiative. It is a 
regional initiative, something we are certainly very familiar 
with, both from my experience in Boston, New York, and now in 
Los Angeles. The recommendation that the mayor has included in 
his testimony is that the new initiative that is proposed in 
the Senator's gang bill should be focused more specifically. 
HIDTA is a larger region. Our experience would be that you 
would want to keep it concentrated within a geographic 
jurisdiction, such as the city of Los Angeles.
    So in the Mayor's testimony, written testimony, there is a 
proposal to more specifically, while taking many elements of 
HIDTA, the High-Intensity Drug Trafficking Area program that 
has been so successful throughout the country, as we deal with 
gangs you would want a more significant and focused 
concentration of how you would apply those resources.
    Senator Whitehouse. I cannot help but think about, if we 
speak about safety in our communities, the decision of the Bush 
administration to reduce funding for community policing and 
taking police officers off the streets and to fight against 
assault weapons restrictions and put more assault weapons on 
the streets. Do you see fewer police officers and more assault 
weapons as a sensible policy with respect to gang activity and 
violence in our cities?
    Chief Bratton. I was quite proud during my time as police 
commissioner of New York City to actively work with the then-
President and the then-Congress to work on the omnibus crime 
bill. I was pleased to be in the Rose Garden when President 
Clinton announced the initiative and to also be there for its 
signing, and we saw the benefits of that coalition--the omnibus 
crime bill, some meaningful gun laws for the first time in the 
history of the country, and it worked, including the close to 
100,000 additional police that were hired.
    All of the elements of that program have pretty much been 
dissipated since the events of 9/11 other than the philosophy 
of community policing, which we embrace--partnership, problem 
solving, prevention. Unfortunately, the partnership with the 
Federal Government, the Federal Government contribution to that 
partnership has waned significantly. Director Mueller of the 
FBI would love to have his agents once again back working in 
close partnership with us on issues besides terrorism. What few 
agents he does have he allocates to traditional crime reduction 
efforts, and Los Angeles certainly gets its fair share of what 
is left.
    But the point you make that in the 1990s we got it right. 
We must once again understand that we cannot just fight a war 
on terrorism. We need also to fight a war that is closer to 
home, that is taking 16,000 lives every year, and that death 
toll is now growing once again. We have the capabilty to fight 
both terrorism and traditional crime together.
    Mayor Villaraigosa. And, Senator Whitehouse, I am glad that 
you make the reference and the connection between gangs and gun 
violence. I know that Senator Feinstein authored the assault 
weapons ban, and as she knows, I was, along with Senator 
Perata, the author of California's assault weapons ban when I 
was Speaker of the California State Assembly, and also the 
author of most of the most far-reaching, sensible gun 
legislation in California.
    These gang members are not using bats and brass knuckles. 
They are using guns. They are using fire power that should be 
restricted to the battlefield and not the streets and 
neighborhoods and kitchens, as you heard from our testimony, of 
neighborhoods in Los Angeles and in cities across the Nation. 
We mayors--Mayor Bloomberg, myself, Mayor Daley--have led an 
effort to address this issue of micro-stamping and having the 
ability to trace weapons and ammunition so that we can get a 
handle on this issue.
    Whenever I refer to gang violence, I always say ``gang and 
gun violence,'' because as I said, they are not using knives 
and bats and, you know, brass knuckles. They are using fire 
power that is very, very formidable.
    Senator Whitehouse. Thank you.
    Senator Feinstein. Thank you.
    Let me just thank you for that effort because, having been 
a former mayor myself and active in the Conference of Mayors, I 
always thought that where the leadership would have to come 
with respect to guns is either from the mayors or from the 
women of America. There has to be an understanding of what the 
laxity with respect to being able to buy a gun on a street 
corner, from the back of a car, at a gun show, really does to 
the safety of the cities of America. And that has always been a 
very difficult point because the NRA comes right after you, and 
I see where they are going after Mayor Bloomberg. But I just 
want you to know I have the greatest respect. Thank you for 
what you are doing. Stand up tall. I am ready to go with 
legislation at any time. It is written. We have it. The problem 
is we do not have the votes for it. I just want to, you know, 
really say thank you.
    I also want to make a point. A few years back, I went on a 
visit to various schools in L.A. You were not mayor then. I was 
speaking to a fourth-grade class, and I noticed a youngster 
came up and stood next to me. I thought, ``This is strange.'' 
And afterwards, I asked somebody, I said, ``Who was that 
youngster that came up?'' He was the gang leader. So he was 
coming up to assert his territory in the classroom while I was 
actually speaking to the class.
    It sort of concentrated my attention, and I began to watch 
body language in other classes. And what I saw--and I do not 
know whether this is valid or not, but I saw it--was the 
difference between the third graders and the fourth, fifth, and 
sixth graders in the dullness of the eye that appeared, the 
apparent boredom, their body language in the chairs, and this 
sort of bright, eager third grader. By the time that third 
grader became a sixth grader, you saw the cynicism and the kind 
of pulling back that took place.
    So I have always drawn the conclusion that you really have 
to be concerned from grades 4 on up. Do you think that is 
wrong?
    Mayor Villaraigosa. No, I do not. I think you are 
absolutely right. You know, the murder of Cheryl Green that I 
mentioned, the young boy or the young man who shot and killed 
her in cold blood was--they did a story on him on the front 
page of the L.A. Times, and, you know, as a young boy he was a 
ball player, a church-going youngster, a good mom, a good 
family. And around the fourth or fifth grade, he began to 
exhibit, you know, aberrant behavior that then resulted in him 
joining gangs in middle school grades and then finally a life 
of destruction.
    Senator Feinstein. You mentioned Father Boyle and his 
programs, and the chief did as well, in terms of being able to 
turn around these youngsters.
    One of the things that I have thought about is having some 
of these programs right in the school, almost part of the 
curriculum, in places where you really have troubled schools--
and we know they do exist--and try to get at the heart of the 
gang movement right inside the schools. Do you think that makes 
any sense?
    Mayor Villaraigosa. It makes a lot of sense, Senator. In 
fact, as you know, I made a valiant effort--
    Senator Feinstein. Yes, you did.
    Mayor Villaraigosa.--to take over in a partnership L.A. 
city schools. That effort notwithstanding was judged 
unconstitutional, and then I supported a majority, helped to 
elect a majority of reform members. I am hoping and expect that 
I am going to get a cluster of schools, some 50,000 kids, and 
one of the things we want to work on is on this issue of gangs 
and at-risk kids and have a concentrated focus in the schools.
    A woman who I supported for school board who is a 
neighborhood prosecutor, who works in the city attorney's 
office and works with gang members, says she has never met a 
gang member who was not first a truant or a dropout.
    Senator Feinstein. That is correct.
    Mayor Villaraigosa. And so focusing on this issue in the 
schools is one aspect of the partnership that I think cities 
and schools need to have to address the violence in schools and 
in neighborhoods.
    Senator Feinstein. Well, thank you very much. I do not want 
to take any more of your time. You might have to remind the 
commission occasionally of your support of them during the 
election. That is what I always found happened after a while. 
But I wish you the best of luck, and thank you for your help 
with this bill, and thank you both so much for being here. I 
appreciate it very, very much.
    Mayor Villaraigosa. Thank you, Senator Feinstein, Senator 
Whitehouse, for having us here.
    Senator Whitehouse. Good to be with you, Mayor, Chief.
    Senator Feinstein. We will move on to the next panel. We 
have a victim, Ms. Boni Gayle Driskill, from Modesto, 
California. And Mr. James Fox, District Attorney of San Mateo 
County. Mr. Fox is also the President-Elect of the National 
District Attorneys Association. We have Mr. Claude Robinson, 
Vice President of Youth Development Programs, Uhlich Children's 
Advantage Network, Chicago; Mr. Gregg Croteau, Executive 
Director, United Teen Equality Center; and Mr. Patrick Word, a 
detective from the Gaithersburg Police Department of 
Gaithersburg, Maryland, and he is also Chairman of the Mid-
Atlantic Regional Gang Investigators Network.
    It is wonderful to have you here. Boni, I believe we will 
begin with you. She is a resident of Modesto. She is the mother 
of Lacy Marie Ferguson, who has been an innocent victim of gang 
violence. Before Lacy was shot and killed at the age of 25, Ms. 
Driskill had been a medical assistant. She then quit her job to 
help raise her granddaughter, Haleigh, who is now 6 years old. 
Ms. Driskill is a member of Wings of Protection, a group that 
provides counseling to the family members of victims of 
homicide and missing persons.
    Welcome. We will ask you to confine your remarks to 5 
minutes so we can hear from everybody. Thank you very much.

STATEMENT OF BONI GAYLE DRISKILL, WINGS OF PROTECTION, MODESTO, 
                           CALIFORNIA

    Ms. Driskill. Thank you. First of all, I want to introduce 
you to my daughter and my granddaughter. I find it is much 
easier if you can see who I am speaking about. This is my 
daughter Lacy. She is 25. This is my granddaughter, Haleigh, 
who is now 6. Her mother was killed on her third birthday.
    First off, I know by looking at me you would not think that 
I would be aware of what gang violence means or be an expert in 
it. I do not--
    Senator Feinstein. May I make a suggestion? Talk into the 
microphone, please, because it is all recorded.
    Ms. Driskill. OK. First off, I know you would not think 
that I would be aware of what gangs are or anything else. I 
mean, my kids grew up--I am a Mom. My kids grew up. Of course, 
I saw gangs in our neighborhood, but I kept them away from 
them. We had lived in Los Angeles, and in 1982 I decided to 
move my small children to Modesto, California, which was a 
small town at the time and did not have a gang problem like Los 
Angeles. I thought that that would be the solution at the time.
    Well, on August 24, 2003, my daughter, Lacy, who was not a 
gang member, who was not wearing the wrong colors, who--the 
closest thing to a gang was Girl Scouts and Sea Cadets--went to 
a corner market with her boyfriend. She was on a date with him, 
and she went in to get a pack of cigarettes, came out. One car 
pulled in front of her. It had gang members in it. Another car 
came in, looked at them, left, I guess to--I assume to load up 
their weapons, came back and opened fire on the first car.
    My daughter's boyfriend was shot in the arm. The intended 
target, which was the other gang member from the other car, was 
shot twice in the buttocks. My daughter, on the other hand, was 
shot pointblank in the back of her head.
    She was resuscitated at the scene. She was taken to the 
trauma unit. She was resuscitated again. And the wound itself 
was such that there was nothing they could do. It was a large-
caliber hollow point, which did complete damage. It entered the 
back of her head, exited her forehead with part of her forehead 
and most of her brains. She was put on machines to keep her 
alive. We had to make the decision to let her go because there 
was nothing that could be done. We let her go that next day.
    We took Haleigh into the ICU unit. We covered Lacy up and 
we took Haleigh in there. She was 3. She wanted her Mom to hold 
her. She couldn't. She asked why Mama had a big boo-boo on her 
head. We took her out of the room. That was her good-bye.
    I want you to know now Haleigh gets as physically close to 
her mother as when we visit that graveyard. We do this. I 
personally go about four times a month. She gets to go probably 
about once a month and on holidays. She hugs the stone. She 
kisses the picture good-bye. She asks questions now. ``Why? Why 
are these people free?'' Because it is unsolved still due to 
the fear that people have of gangs. There were 20 to 30 
witnesses to the shooting. Nobody has stepped forward, which is 
hard for us. We have fought very hard for justice.
    I appreciate and I thank you, Mrs. Feinstein, for this gang 
abatement bill. It means a lot to me and to numerous families 
that I deal with on an everyday basis who have the same sad 
life that we do. Their story may be a little different, but 
they do not have a loved one anymore. They visit graveyards. 
They get to talk about their feelings, and the gangs still 
exist. They are not only existing, but they are proliferating. 
They are spreading.
    Los Angeles, as you heard, has a drop in crime. A lot of 
their gang members are moving to our area. The Central Valley 
is known for gangs. You cannot go to a J.C. Penney's, you 
cannot go to a diner, you cannot go to take your child to Chuck 
E. Cheese without seeing these people. They used to stay 
basically within their own realm. Now there are so many that 
they are everywhere that you go.
    I appreciate Washington, D.C. It is so clean here. I have 
not seen anybody that even remotely looks like a gang member 
here, and for that I applaud you guys. We would like to see the 
same.
    Senator Feinstein. Well, do not rush to judgment.
    [Laughter.]
    Ms. Driskill. Well, so far. But, I mean, compared to what 
we are used to living with.
    A couple days before Christmas Eve in 2005, I wrote a 
letter to the editor. It was addressed to the killers. Not so 
much what I wanted to see done with them. I am pro death 
penalty. I will be honest with you. But not so much what I 
wanted to see done with them, but for the fact that I wanted 
them to know what we have to live like since they did what they 
did. They did what they did and they scurried into the night. 
That is it. Nobody is uncovering who they are. They have that 
much intimidation.
    When I wrote a letter to the killer and put it as a letter 
to the editor, they made a feature story out of it. A couple 
days later, I received my answer from the gangs. They found out 
where we lived. They drove into my driveway and shot off seven 
rounds with a 9-millimeter gun. This is at a house that 
consists of me and my husband--grandparents--and a 6-year-old 
child who no longer has her mother. We face the intimidation of 
these people every single day where we live, and as for police 
officers, there are not enough. The crime is just over-running 
them.
    As for the gang units and stuff or prevention, we do not 
have it. We have a wake-up program that I came in contact with, 
and we have the after-school program. That is it.
    Senator Feinstein. Could you wrap up because of the time?
    Ms. Driskill. OK. Thank you. Sorry. I tend to get on a roll 
with this.
    Senator Feinstein. Thank you very much. We appreciate it.
    Ms. Driskill. But basically what I am asking you is two 
things. We really like this bill. Please, speaking as a 
victim's family--and I speak for many--do not water this down. 
Pass this thing the way it is so people can live peacefully.
    Thank you.
    [The prepared statement of Ms. Driskill appears as a 
submission for the record.]
    Senator Feinstein. Thank you. One of the big problems is 
witness protection and the intimidation that gangs practice, 
andyou are obviously a victim of that, too, and I am so sorry. 
We will do everything we can.
    James Fox is the President-Elect of the National District 
Attorneys Association, and he is a former President of the 
California District Attorneys Association. He is a graduate of 
the University of San Francisco, and he has served at the 
elected D.A. of San Mateo County for the past 25 years, where 
he has seen firsthand the rise of gang violence.
    Welcome, Mr. Fox.

STATEMENT OF JAMES P. FOX, DISTRICT ATTORNEY, SAN MATEO COUNTY, 
 CALIFORNIA, AND PRESIDENT-ELECT, NATIONAL DISTRICT ATTORNEYS 
             ASSOCIATION, REDWOOD CITY, CALIFORNIA

    Mr. Fox. Thank you very much, Madam Chair. It is a pleasure 
to be here, and I would like to thank you for the leadership 
role that you have taken in regard to this very important 
issue.
    I have been involved in the criminal justice system in one 
role or another for the past 41 years. I started out with the 
juvenile probation department. I served as a deputy district 
attorney prosecuting crimes. I spent 9 years as a criminal 
defense attorney. And as you said, I have been the elected 
district attorney now for almost 25 years. So I do think I have 
a rather broad perspective of the issue of crime, and in 
particular gang violence.
    Our county is somewhat unique, as you are certainly aware, 
Madam Chair. Many people do not realize that they have been in 
San Mateo County, but San Francisco International Airport is 
located in San Mateo County. So if you have been to San 
Francisco by flying, you have been in San Mateo County.
    The views that I am expressing are the views of both the 
National District Attorneys Association as well as the 
California District Attorneys Association, which has endorsed 
your legislation.
    You are well aware of the nature of the national gang 
problem. I will talk a little bit about the San Mateo County 
gang problem. But I want to also touch upon why I believe that 
it is important that there be Federal legislation to deal with 
this issue.
    Complexity characterizes the gang issue in all of our 
communities, and the safety of our citizens is seriously 
jeopardized as a result. But the fact of the matter is this is 
not just a local community issue. It is a national epidemic 
requiring Federal assistance. With the relative ease with which 
gang members can today cross State lines and international 
borders and utilize ever emerging technologies to communicate 
and perpetrate their crimes, we believe that it is important 
that there be a cooperation and a partnership formed by the 
local prosecutors as well as the Federal authorities.
    In 2005, the San Mateo County Board of Supervisors, 
recognizing the proliferation of the gang problem in our 
county, funded additional positions in the sheriff's office and 
in the probation department. We created a Gang Task Force, as 
well as a Gang Intelligence Unit, which is collaboratively 
cooperating with the Federal Government. The FBI is actively 
participating along with ATF. We believe that that could serve 
as a model for the partnership between the Federal Government 
and the local prosecutors.
    San Mateo County's gang problem really does not reach the 
level where there are gang enterprises, criminal gang 
enterprises. The majority of our gangs, it is all about colors, 
turf, and respect. They are not engaged in for-profit 
operations, but they will engage in violent retaliation if 
somebody wearing the wrong color goes into their turf. So the 
current Federal laws are not capable of dealing with that on 
the Federal level because it does not rise to the level of a 
RICO. It is not an enterprise as such.
    We believe that there are inadequate resources that have 
been devoted certainly to prevention--as I said, I have spent 
41 years in the criminal justice system. We do not nor have we 
ever spent enough money at the front end to try to change 
people, modify their behavior. We certainly do not spend enough 
money in trying to educate and do the intervention for at-risk 
behavior. You know, I am familiar with Father Boyle. I think he 
has got a fabulous program. But the high school level is too 
late. The intervention has got to start at the elementary 
school--they cannot even start in the middle school--because 
that is where it is getting started, as you commented yourself 
Senator, having been in a fourth grade class and firsthand 
witnessing the behavior of people who are at risk.
    We believe that the additional funding that might be 
available through this would authorize training. Training is 
absolutely critical for prosecutors to succeed in a courtroom. 
It is also critical for providing safety for our witnesses and 
our victims, and the National District Attorneys Association 
has a National Advocacy Center in Columbia, South Carolina, 
which we believe is a model of training for prosecutors and 
should be utilized in providing additional training to address 
the gang problem.
    In closing, I appreciate your efforts, Senator, and the 
Committee's interest in this. I appreciate Chairman Leahy 
scheduling this hearing on a very, very important issue, and I 
believe that it is imperative that we finally be able to take 
action that you have been advocating now for the past 10 years.
    Thank you very much for your efforts.
    [The prepared statement of Mr. Fox appears as a submission 
for the record.]
    Senator Feinstein. Thank you, Mr. Fox.
    We are now joined by Senator Durbin, and since the next 
witness is a distinguished Chicagoan, I believe that Senator 
Durbin should introduce him.
    Senator Durbin. Thank you, Madam Chair, and thank you for 
your leadership on this issue.
    This hearing is the culmination of many years of effort by 
Senator Feinstein on this issue. I know of her determination 
and hard work to bring us to this point, and I thank her. We 
have worked to resolve some differences that we had, and I 
believe that we now are very close to having a good piece of 
legislation to bring through the Committee and to the floor to 
deal with this national problem.
    Madam Chair, my guest today is Claude Robinson. Claude is 
with an organization known as the Uhlich Children's Advantage 
Network. Uhlich goes back to the Civil War. It was started at a 
time when orphans of Civil War soldiers needed a place to go 
and be safe. It has survived all these years because it has 
been dedicated to young people and to the real problems that 
they face on a regular basis.
    Madam Chair, there is a lot of criticism of Members of 
Congress for earmarks. I want to put it on the record that I am 
proud of the earmark that I put in legislation to help fund 
this program at Uhlich Children's Advantage Network because 
they have taken this money and reached out, just as Mr. Fox has 
noted, to children in the lower grades for gang prevention. If 
we are going to avoid the terribly tragedies that Ms. Driskill 
spoke of earlier, many of these children need to be reached at 
an early age. UCAN, Uhlich Children's Advantage Network, has 
done that.
    And a word about Claude Robinson. Over 20 years of 
dedication to this effort, he was truly deserving when WGN-TV 
recently called him one of Chicago's ``unsung heroes,'' so I am 
happy to welcome him to this Committee.
    Mr. Robinson. Thanks. Thanks for having me, Senator.
    Senator Feinstein. Welcome, Mr. Robinson.

 STATEMENT OF CLAUDE A. ROBINSON, JR., VICE PRESIDENT OF YOUTH 
  DEVELOPMENT PROGRAMS, UHLICH CHILDREN'S ADVANTAGE NETWORK, 
                       CHICAGO, ILLINOIS

    Mr. Robinson. Thank you, Senator Feinstein. I wanted to 
tell you that we really do appreciate the opportunity to speak 
with the Committee today and to provide what we hope are some 
viable solutions to the problems that young people experience 
and that we experience then as adults in this country.
    Perhaps Chicago's most indelible mark currently for the 
2006-2007 school year are the 28 young people who have lost 
their lives to guns and violence, in a timeframe spanning from 
September of 2006 through March 31, 2007. In my estimation, one 
life is too many, but 28 is unconscionable--28 young lives 
where their futures are unfulfilled, where their families are 
impacted, our communities are impacted, and then our Nation is 
impacted.
    I had the opportunity to watch--and hopefully some of you 
did also--Anderson Cooper come to Chicago last week, and he 
spoke to the superintendent of the Chicago public schools, Mr. 
Arne Duncan, and asked him, ``Why is this happening in Chicago? 
Is this specific to Chicago?'' And what Arne said, which 
resonates with young people as they try and speak out to adults 
in this country, Arne said that young people have not enough 
love, their lives are not filled with enough meaning, and their 
lives are not filled with enough hope. And he said, ``When you 
have hopelessness, lovelessness, and meaninglessness, what 
value can you have of yourself? How can you value your life? 
And then if you do not value your life, you will not value the 
lives of other people.''
    So I wanted to present to you over the past 3 years what we 
have done in Chicago to try and eradicate some of the violence, 
Chicago being one of the most highly gang-infested and gun-
infested cities in this country.
    We have been able to go into the Chicago Public Schools 
through a partnership with Project Safe Neighborhoods, a 
public-private venture where law enforcement partners and 
partner providers were able to go into some of the toughest 
neighborhoods in the city of Chicago--Chicago Police Districts 
7th, 9th, 10th, 11th, and 15th. And we were able to provide 720 
hours of classroom-based violence interruption workshops to 
sixth through eighth graders at 40 different Chicago public 
schools. We were also able to train about 25 young--40 young 
people, actually, through our Young Leaders Development 
Institute. These are young people who we get involved in actual 
leadership activities, being involved working with our 
legislators, being involved working with our local, State, and 
national policymakers, being involved in their communities to 
challenge their peers to look at the behavior, look at the 
destructiveness that is going on, and then to actually try and 
affect policy and effect change.
    During the past 5 years, we have noticed that young people 
have spoken about violence prevention programming and then, 
like a lot of the colleagues that came up before me, they 
recognized that not enough financial resources in prevention 
programs are going, to help them to lead more productive and 
less destructive lifestyles. So they see the hypocrisy that 
adults are saying that you are supposed to lead a certain 
lifestyle; however, you are not giving them the resources or 
helping them to build the capacity to deal with the issues they 
deal with on a daily basis in their neighborhoods.
    UCAN's violence prevention programming has been able to 
steer 2,000 young people away from gangs, away from guns, and 
away from crime. These are not young people who romanticize 
violence. They are dedicated to learning how to reduce the 
violence and how to engage with policymakers to make sure that 
things are moving in a direction that would benefit them.
    We have a national poll that we do each year where we have 
1,000 young people from around the country give their ideas on 
what they think about guns and what they think about violence. 
Every year we learn pretty much the same thing. I was 
privileged to stand with Senator Durbin at the Cook County 
Medical Examiner's Office as we launched 1 year the Teen Gun 
Survey, and 84 percent of the young people that were surveyed 
said that we should have a Federal assault weapons ban, that we 
should renew it. And somehow the sunrise set on it. Young 
people are active and young people are seeing that they can 
make a difference, and they are looking for adults at all 
levels who are concerned and who are committed to trying to 
make their lives better.
    UCAN firmly believes in the need for more resources, more 
diversion programs, and more opportunities like the youth-led 
programs that Senator Durbin has endorsed in Chicago.
    There is a tremendous value in having all of the parties 
work together. As a member of Project Safe Neighborhoods, I 
have been able to sit in rooms with the U.S. Attorney's Office, 
ATF agents, DEA agents, the Cook County State's Attorney, and 
the Chicago Police Department to share information that will 
help to get young people educated so that then they can make 
more informed choices in their lives.
    These partnerships made it possible for students who were 
struggling through war zones to make better decisions for their 
lives. UCAN's model is based on the Boston model that started 
in 1993 that was recognized by OJJDP as a promising model. We 
continually try and work with national organizations and 
foundations to try and create partnerships that will keep 
funding going so we can keep doing the programs that we do.
    We are excited about the $125 million that would be made 
available under S. 456 for prevention and intervention 
services. This level of funding underscores the importance of 
prevention services and the commitment of our elected leaders 
to support proven, successful programs.
    Additional funding will allow us to reach another 800 
students in Chicago in only 2 years, and it will allow us to 
train 50 more young leaders under our Young Leadership 
Development Institute.
    In closing, I want to just share what one of our young 
people who is a freshman in college right now said. We launch 
the results of our national poll each year in August or 
September before school is about to start, and we let it go 
until October 1 year. And he said, you know, ``Adults think 
that Halloween is scary. And Halloween is not scary.'' He said, 
``What is scary is that 49 percent of my peers around the 
country want more violence prevention programs, but people keep 
cutting them.'' And he said, ``It is also funny that they will 
not listen. Violence prevention should be part of the defense 
budget. Homeland security begins at home.''
    Ladies and gentlemen, in my 20 years of working with and 
learning from young people, I know it is essential to have a 
youth-adult partnership where people are committed to a common 
cause, and this cause would be gang prevention, gang 
intervention, and then at the highest level where there are 
young people who just do not care, then prosecution would fit 
the bill.
    I thank you for the time to speak, and I look forward to 
many great things.
    [The prepared statement of Mr. Robinson appears as a 
submission for the record.]
    Senator Feinstein. Thank you very much, Mr. Robinson.
    Our next witness is Gregg Croteau. I hope I am saying that 
reasonably well.
    Mr. Croteau. Yes.
    Senator Feinstein. Mr. Croteau is the Executive Director of 
United Teen Equality Center in Lowell, Massachusetts. That is a 
youth-led agency that focuses on gang intervention and 
peacemaking. In June of 2006, he received the prestigious 
Robert Wood Johnson Community Health Leader Award for his 
leadership in gang peacemaking work. He has more than 13 years 
of youth work experience, and he has brought with him in our 
audience today Ricky Le, one of the youth members working with 
his organization. We welcome you as well.
    Please go ahead.

  STATEMENT OF GREGG CROTEAU, EXECUTIVE DIRECTOR, UNITED TEEN 
             EQUALITY CENTER, LOWELL, MASSACHUSETTS

    Mr. Croteau. Thank you, Senator Feinstein. It is great to 
be here, great to be here with the panel. I would like to thank 
all of the distinguished members of the panel for allowing me 
the opportunity to share some of our thoughts on this 
critically important issue. And I say ``our'' because, as you 
mentioned, I am here actually with three of our colleagues: 
Ricky Le, who is one of our team members; Sako Long, who is our 
streetworker supervisor; and Juan Carlos Rivera, who has been 
with UTEC from the very beginning as our streetworker director. 
And I want to thank them because they are out there every day 
making the difference on the streets of Lowell as well. So it 
is great to be with them.
    I would like to begin by acknowledging that the Federal 
Government is absolutely on point in recognizing youth violence 
as a critical issue in our communities. We have had to attend 
far too many funerals in our days as youth workers. Funerals 
have become far too much like regular events in the lives of 
young people. In fact, when we were at one of our last 
funerals, walking toward the gravesite of this 19-year-old man 
who was shot, I accidentally stepped on another gravestone. And 
as I looked down, the gravestone was actually that of another 
young man who was shot only weeks before that we know. And 
looking up, I thought, ``This is absolutely absurd. This is not 
normal, and we cannot continue to keep walking past these 
gravesites.''
    So, yes, we truly appreciate the Committee's initiative in 
prioritizing this critical issue in our communities and agree 
that a major statement--a major statement--must be made to best 
address the violence too often found in our streets.
    For the past 7 years, I have had the honor of working as 
the first Executive Director for the United Teen Equality 
Center, better known as UTEC, which is a youth organization 
located in Lowell, Massachusetts. As a youth-led agency, we 
offer a range of services for young people ages 13 to 23, and 
our core values focus on peace, positivity, and empowerment.
    Soon after our establishment, we created the Streetworker 
Program, and in short, basically the streetworkers are out 
there mediating disputes, mediating conflicts with young people 
on the streets. In particular, our staff implement a 
peacemaking process with rival youth gang leaders that 
ultimately leads to the facilitation of various peace summits 
between opposing gang sets. We have had success stories over 
the past years. One in particular was a summit where we were 
able to build relationships up with young people from different 
rival gang sets. The leaders of these gang sets, being to get a 
commitment from them to get in the same van together and then 
be able to go in the middle of an island in Maine, actually 
kayak out together to the island in the same kayaks, and by the 
fire that night they--not us or the staff--they were able to 
bridge a peace summit between these two groups that were 
previously shooting and stabbing each other.
    These stories are not unique for us. A major statement must 
be made to truly reduce the violence in our streets. However, 
we respectfully express our concern that this major statement, 
this unique opportunity to significantly effect change--change 
that lasts beyond the current moment--must include a balanced 
approach of enforcement along with intervention and prevention.
    As many researchers have commented, we cannot just lock 
away the problem. At the recent House hearing for H.R. 1582, 
the Chief of Police from Kansas City echoed this in his 
testimony, saying that, ``We cannot arrest and imprison our way 
out of this problem.''
    As indicated in a letter from the National Juvenile Justice 
and Delinquency Prevention Coalition, this bill ``contains 23 
substantive sections; of those, 21 focus solely on creating new 
crimes, expanding culpability for the accused, and enhancing 
penalties for the convicted. Similarly, of the $240.5 million 
in appropriations the bill requests, less than 20 percent is 
allowed for prevention and intervention.'' Moreover, the 
proposed legislation actually only authorizes approximately $25 
million a year for gang violence prevention services for 
communities across the country such as Lowell that will 
probably not be designated as a High-intensity Interstate Gang 
Activity Area. I sometimes think that the term ``gang problem'' 
is too easily thrown around. Perhaps it is subconscious, but I 
think it becomes more palatable and easier to pinpoint the 
problem by doing so. No community simply has a gang problem. 
This is not some type of medical model where we can identify 
the specific disease--i.e., the gang--that is eating the life 
out of our communities.
    All of the complex forces and rooted causes of gang-related 
violence will never be adequately portrayed when defining it 
with a singular name. The issues of poverty, racism, education, 
and other complex forces all impact the violence in our 
streets. There is no one fix, there is no one face, and there 
can be no one name that encompasses all of our concerns.
    That being said, we do have concerns that this new 
legislation takes a very broad approach to solving problems 
that are often locally distinct and community centered. As 
Senator Kennedy mentioned in his statement on June 22, 2006, 
there is a ``one-size-fits-all approach'' to this legislation 
that is of considerable concern. From our experiences, it is 
incredibly clear that the gangs in Los Angeles are very 
different from the gangs in Lowell.
    In Lowell, we have Bloods and Crips living right next door 
to each other, and teens are not fighting over drug trade and 
territory, but more often fighting over a perceived disrespect 
or differing colors. As such the approach to best address this 
problem must also allow for the opportunity to be radically 
different.
    We know that intervention and prevention strategies can 
provide the hope that some young people have lost sight of. 
Without a balanced effort in these areas, the hopelessness that 
already surrounds too many young people will continue to grow 
that much stronger. There is no greater foe, no greater 
frustration, than the sense of young person who feels like 
nothing can change, who feels like their life is cornered into 
hopelessness.
    There is a critical problem in our communities, and, yes, 
we need to make a major statement in our policies to best 
address it. However, we need to be very careful about getting 
too drawn into the sensationalism that too often surrounds 
gangs and believing that change is not possible by young 
people.
    Senator Feinstein. Could you summarize please?
    Mr. Croteau. Yes, ma'am. We know too many young peacemakers 
that have successfully brokered peace between their rivals. Two 
of them are here today in Sako and Ricky. And if I could be 
very brief, Sako, who spent some years in prison, came out of 
prison and made a pact with his mother because he did not want 
to see his mother cry anymore, and now he talks with other 
young peace people with the theme of, ``How would it feel to 
have one less enemy on the street?'' And he does amazing work. 
And Ricky, who was moving in and out of foster care for years, 
found our center belonging in a gang. After years of finding 
now instant enemies, he made a decision--a decision that almost 
cost him his life--to leave a gang. He decided to get jumped 
out of the gang. And 3 years ago, in the process of being 
jumped out, he was beaten into a coma for 10 days. He has 
traumatic brain injury, but in his recovery, which has been 
beautiful over the past 3 years, he is now using his story, his 
opportunity to create change and send a message of peace to 
other young people.
    Senator Feinstein. If you could conclude, please. You are 2 
minutes over.
    Mr. Croteau. So we seriously caution against any new 
policies that inadvertently risk deleting the success stories 
of Ricky and Sako. We need more policies to help us strengthen 
hope.
    We thank you for considering our testimony. We thank you 
for considering the concerns around the one-size-fits-all, our 
concerns around increasing more funding for prevention and 
intervention, and we truly look forward to working with you.
    Thank you again.
    [The prepared statement of Mr. Croteau appears as a 
submission for the record.]
    Senator Feinstein. Well, we do as well.
    I want to correct one figure. You said $25 million for 
prevention and intervention. It is $250 million for prevention 
and intervention in this bill.
    I will move right along now to Patrick Word, a 17-year 
police veteran and a detective in the Gaithersburg City Police 
Department. He currently serves as National Secretary and 
Executive Board member of the National Alliance of Gang 
Investigators and is President of the Mid-Atlantic Regional 
Gang Investigators Network. Since 1994, Detective Word has been 
assigned as Gaithersburg Police Department's Gang Investigator, 
working with other State and Federal agencies on investigation 
and intelligence gathering on criminal street gangs.
    Welcome, Detective.

   STATEMENT OF PATRICK WORD, DETECTIVE, GAITHERSBURG POLICE 
DEPARTMENT, GAITHERSBURG, MARYLAND, AND CHAIRMAN, MID-ATLANTIC 
  REGIONAL GANG INVESTIGATIONS NETWORK, GAITHERSBURG, MARYLAND

    Mr. Word. Thank you, Madam Chair and members of the 
Committee. The pervasiveness of gangs throughout society is 
undeniable. They incite fear and violence within our 
communities. Gangs threaten our schools, our children, and our 
homes. Gangs today are more sophisticated and flagrant in their 
use of violence and intimidation tactics. As they migrate 
across the country, they bring with them drugs, weapons, 
violence, and other criminal activity. The acknowledgment of 
the issue and joint community and law enforcement response is 
our best defense.
    The National Alliance of Gang Investigators Associations is 
an alliance of 18 gang investigator associations across the 
United States and Canada. The combined alliance represents over 
20,000 gang investigators, intelligence officers, gang 
prosecutors, corrections officers, and parole and probation 
agents at the Federal, State, local, and tribal levels.
    The NAGIA is a unique alliance of criminal justice 
professionals dedicated to the promotion and coordination of 
national anti-gang strategies. The NAGIA also advocates the 
standardization of anti-gang training, the establishment of 
uniform gang definitions, the assistance for communities with 
emerging gang problems, and input to policymakers and program 
administrators. We are not meant to replace or duplicate 
services provided by any other entity. Rather, we facilitate 
and support regional gang investigators associations, the RISS 
projects, as well as Federal, State, and local anti-gang 
initiatives.
    Since 1994, I have been a police detective working gangs in 
the suburban Washington, D.C., area. In that time, in my 
membership with the Mid-Atlantic Regional Gang Investigators 
Network and the NAGIA, we have partnered with the National Gang 
Intelligence Center in the FBI; we have partnered with the 
Global Intelligence Working Group and the National Youth Gang 
Center to coordinate the sharing of gang intelligence in order 
to foster information sharing among law enforcement 
investigators across the country.
    To date, in 2002 and in 2005, the NAGIA and the Bureau of 
Justice Assistance conducted the most comprehensive and 
scientific study to date of gangs across the country. That 
threat assessment is available online and will be submitted as 
part of the testimony.
    Senator Feinstein. Thank you.
    Mr. Word. Local law enforcement is the front line in the 
war on gangs and gang violence. Eighty percent of all gangs, 
according to our association members, are local and homegrown 
groups engaged in daily criminal activity in large and small 
communities, urban and rural, and every type of neighborhood in 
between. These gangs range in size from the minimum accepted 
definitions of three subjects to as large as several hundred. 
They cross all cultural boundaries in the make-up of their 
membership, and the age ranges anywhere from age 9 to age 40 
here in the Washington, D.C., area. Too often, the public has 
been confused linking the immigration issue as the major cause 
of the gang issue in this country. It is simply a cause, but 
not the cause of a gang problem.
    Intelligence gaps still exist between law enforcement 
agencies, and this hampers our ability to investigate and 
apprehend violators as well as present cases for prosecution, 
both locally and in the Federal system. These gaps can be 
closed with the implementation of the national reporting and 
the national gang data base which this bill calls for, which 
already exists in the Violent Gang and Terrorist Organization 
File, VGTOF, there the NCIC.
    Criminal gangs have stepped up their recruiting efforts 
over the years, and few States have addressed the issue through 
legislative means. The NAGIA endorses those sections of the 
bill that allow for the prosecution of gang recruitment. 
Earlier Chief Bratton mentioned that we have currently 700,000 
police officers and 800,000 gang members. Those numbers are 
increasing every day.
    Here in the Washington, D.C., area, U.S. Attorney Rod 
Rosenstein for the District of Maryland is currently 
prosecuting a large RICO case involving the MS13 gang, the 
violent Salvadoran gang found here in the United States, and 
also we are currently investigating a large Crip set in 
Maryland--53 members arrested at the State level and Federal 
prosecution is coming. And there is a press conference today, I 
believe, on further indictments on the MS13 case.
    Witness intimidation is a major problem in that case. 
Witness intimidation is a problem for local law enforcement. 
Many violent gang cases are dropped or lost in local courts 
because witnesses do not or cannot come forward. Most local 
jurisdictions do not have the resources necessary to fund 
witness protection programs. The NAGIA supports and endorses 
the portions of the bill which assist law enforcement in this 
capacity.
    Obviously prevention alone does not solve the gang problem, 
inventory alone. We have heard that from other members of the 
panels. But this is a remarkably progressive bill. It is a 
crime bill, but it funds prevention and intervention and other 
social type programs, which is unprecedented, at least in 
recent memory, in law enforcement where a crime bill or a large 
portion of this crime bill funds intervention programs. So we 
support and endorse the funding of those programs as well.
    Law enforcement plays only one of three roles needed for 
communities to deal with the issue of gang violence. We are the 
suppression arm of the comprehensive approach, and the NAGIA 
has partnered with the National Youth Gang Center and their 
support with Federal funding of the GREAT program and endorses 
those prevention and intervention efforts across the country. 
We support and endorse local nonprofits and faith-based groups 
and other police departments who have worked with these groups.
    This bill is part of the suppression arm, and we welcome 
and endorse its passage. My thanks to the Committee and its 
members for inviting me to speak on this very important matter, 
and I am available to answer any questions that you may have.
    [The prepared statement of Mr. Word appears as a submission 
for the record.]
    Senator Feinstein. Thank you very much, and let me thank 
all of the witnesses. I really appreciate your being here and 
appreciate your testimony.
    What we have tried to do is put together a bill that is 
bipartisan in nature, and that has not been always very easy. 
If you have Republican support, you sometimes do not get 
Democratic support, and vice versa.
    I think we have achieved it. The bill has been last session 
pre-conferenced with the House. My staff has been wonderful 
about working with any member that has a concern or an 
amendment or something they want in a bill to try to see if we 
can keep our bipartisan group together, but at the same time 
where there are good ideas add them to the bill.
    Detective, I am very pleased by what you said. We have over 
the 10 years greatly increased the prevention and intervention 
part from where it started, to be very candid with you. One of 
my concerns is to try as we move along to really be able to get 
a more adequate compendium on intervention and prevention 
programs that exist in the United States and that are working 
so that the money that is in this bill is not wasted but it 
goes to the groups and organizations and cities and counties 
that can produce a change in young people.
    As I mentioned to Mayor Villaraigosa, I am particularly 
interested in seeing if we cannot do more actually in schools 
and maybe, like with L.A. Best, bridge that gap between the 
school time and the after-school time to really begin to get at 
the heart of it.
    I must tell you, I am very concerned with the brutality of 
these gangs, and we have a living witness here as to what 
happened. Not only was her daughter shot and killed, but when 
she went out and asked for additional police help, her house 
got seven bullets. And that is the kind of thing that has to be 
stopped and for which there should be no sympathy whatsoever.
    The use of hollow-point bullets, again, is another 
indication of just you do not have a chance, and I think and 
hope we have struck a balance in this bill because that is what 
we have tried to do.
    I really have no additional questions. If anyone would like 
to make a closing comment or two, the floor is yours.
    [No response.]
    Senator Feinstein. No? OK, then. Well, thank you all very 
much for being here. This bill is on the calendar for 
Thursday's markup. We anticipate that it will be held over a 
week.
    [Pause.]
    Senator Feinstein. My understanding is that Senator 
Feingold is on his way. He should be here in 2 minutes. So in 
the meantime, I have a statement by Senator Kennedy to add to 
the record and one by Senator Leahy to add to the record, and I 
will do that.
    I would like to ask the two law enforcement people here a 
question. The High-Intensity Gang Areas, which are really 
modeled after the HIDTA areas, are trying to put together these 
task forces that extend out, where necessary, into a region to 
bring together people in law enforcement to really go after 
some of these gangs, those that kill, those that practice 
witness intimidation, those that kill witnesses. I mean, that 
is--do you see that working well? We will start with the DA, if 
I might.
    Mr. Fox. Madam Chair, I know that in the San Francisco Bay 
Area, at least, the HIDTA has been incredibly successful, and 
Captain Brooks, whom I know you are familiar with, has been 
very, very effective.
    One potential concern is the potential of overlapping 
because there may be some gangs that are engaged in drug 
activities. And so I would hope there would not be a 
duplication of effort or creation of a new bureaucracy if, in 
fact, there exists a current structure which could address the 
problem.
    The HIDTA has been effective and can focus in on a 
particular area. It is not just a broad--
    Senator Feinstein. Well, let me ask you, do you think what 
we should do is merge the two?
    Mr. Fox. I think that that is something that should 
certainly be given consideration, because my concern is if you 
are going to create a new bureaucracy with the High-Intensity 
Gang Area and you already have an existing structure, which 
basically has the capability of providing the same coordination 
and resource distribution, I would think that that is something 
that should be considered, yes, Madam Chair.
    Senator Feinstein. Thank you, Mr. Fox.
    Detective, would you like to comment?
    Mr. Word. Senator, I think that it has to be looked at on a 
case-by-case basis. I think HIDTAs in certain areas of the 
country are more effective than they are in other parts of the 
country. I think the HIDTA concept is extremely effective.
    Senator Feinstein. Do you have one back here?
    Mr. Word. We do have one. The Baltimore-Washington HIDTA 
extends from Northern Virginia up through the Baltimore-
Washington corridor, up the 95 corridor. Tom Carr is the 
director of the HIDTA in this area, and they have been very 
effective in their drug work. They have actually gotten 
involved in some of the computer work involving gang data bases 
here, at least in the State of Maryland, and that is a data 
base that will be extended to the HIDTA.
    But a case in point would be the small town in rural North 
Carolina, in Fayetteville, North Carolina, just outside of 
Fayetteville. A town of 900 had a gang infiltrate the town in 
recent months where they have 25 gang members in a town of 900. 
There are four police officers in that town. If that does not 
tax resources, if that is not an area in need of a HIGAA or a 
HIDTA extension and a role for a task force, I do not know 
where there would be one.
    Certainly we want to concentrate those in the larger areas 
where we have more gang problems, but the gangs have moved out 
into the rural and the suburban communities. Western Maryland, 
West Virginia--these areas would be more attuned to having task 
force concepts as opposed to the larger agencies and the 
municipalities in the metropolitan areas. They already work in 
a number of task force areas in the Project Safe Neighborhoods, 
through each of the U.S. Attorney's districts. If we could 
concentrate on working the HIDTAs or the HIGAAs in cooperation 
with the Project Safe Neighborhoods program and the Operation 
Safe Streets, I think that these would be a more effective use 
of both manpower and of the funding.
    Senator Feinstein. We will look into that. Thank you very 
much.
    I notice we are joined by Senator Feingold. Welcome, 
Senator. You are the closing hitter, so please go ahead.
    Senator Feingold. All right. I thank the Chair for keeping 
the hearing going, and I thank you, Senator Feinstein, for 
chairing this important hearing.
    I would like to also thank all the witnesses for attending 
today and extend my sincere condolences to Ms. Driskill. It is 
always heartbreaking to lose a loved one, but particularly when 
that loss is so violent and senseless.
    Wisconsin has had to suffer its share of heartbreaking 
losses as well. While we all hear about the rising crime rates 
in cities across America, one of those cities hardest hit has 
been Milwaukee. In a case that is far too similar to that of 
Ms. Driskill's, on Monday, May 14th, 4-year-old Jasmine Owens 
was shot and killed by a driveby shooter. She had been skipping 
rope in her front yard. We simply must find a way to curb the 
violence that is wreaking such havoc on our communities.
    When I talk to law enforcement officials in Wisconsin about 
combating gangs, they tell me something very interesting. They 
tell me that the problem in California is extraordinarily 
serious. They also say that the scope of the problem varies 
across the Nation and that a solution tailored to California's 
experience may not be the best way to deal with the problem in 
other areas of the country.
    Accordingly, they suggest that what is needed is a targeted 
and substantial influx of funds from the Federal Government to 
areas with serious gang problems to ensure sufficient numbers 
of officers to patrol neighborhoods and to ensure sufficient 
resources in the penal system to incarcerate gang offenders 
once they are sentenced.
    Basically, they are telling me that this is a problem of 
resources more than a problem of law. And they are also very 
insistent that prevention and intervention must play a very 
significant role in strategies to combat gang crimes.
    I want to be certain that we respond to the growing gang 
problem in the smartest and most responsible way possible, and 
I look forward to working with Senator Feinstein and others to 
ensure that any legislation we consider to address the rising 
gang problem is as effective as possible for both her State and 
mine, and the other States as well.
    Mr. Fox, do you think it would be a good practice for 
Federal prosecutors who are considering a Federal gang 
prosecution to consult with their local counterparts before 
making a final decision?
    Mr. Fox. Absolutely, Senator, and I think that one of the 
models that could be used is the current Safe Streets Task 
Force concept where there is a collaboration, and, frankly, the 
local prosecutor, in conjunction with the U.S. Attorney, should 
determine where that case could best be handled. There are 
certainly some areas where the Federal laws may be far more 
effective in providing public safety than the local laws, in 
which event those should be handled by the U.S. Attorney.
    So I strongly encourage collaboration and coming to an 
agreement as to where the matter could best be handled.
    Senator Feingold. Thank you, Mr. Fox.
    Mr. Croteau, do you have any concerns about Federal 
prosecutors deciding to bring gang charges without consulting 
with local officials?
    Mr. Croteau. I think from my experience I would say we come 
from the intervention and prevention side, so we are not 
enforcement experts. But we have a really good partnership with 
our Middlesex District Authority's office, and we actually meet 
monthly with them and with the chief of police. We have now a 
whole advisory task force. And I think that having that local 
connection there, which really has a feel for what is going on 
on the ground, really makes the most sense for us. So I think 
having the Federal prosecution come in that would have 
concerns, again, we do not know that much about it yet. But I 
know what works right now is working with local enforcement and 
the district attorney.
    Senator Feingold. Then do either of you think that 
requiring Federal prosecutors to consult with local prosecutors 
before bringing Federal charges would be a good addition to the 
gang bill that the Committee will be considering in the coming 
weeks?
    Mr. Fox. I certainly feel that it would be appropriate to 
require at least to consult. It is not necessarily limiting or 
inhibiting the ability of the U.S. Attorney to move forward in 
appropriate cases. But there certainly should be a level of 
openness and communication.
    Senator Feingold. Mr. Croteau?
    Mr. Croteau. And I would say maybe the one thing that I--
and I just have been doing some research. It seems clear that 
at least in--I think it was D.A. Paul Logli's testimony before 
the House, he indeed said that, you know, it is not that they 
need more laws. They do not need more sanctions. They need more 
programs. And I think his testimony kind of echoed some things, 
and that there necessarily -maybe there is not necessarily a 
need to have additional Federal prosecutors. But as you said, 
it is not necessarily an issue of laws but maybe an issue of 
resources.
    Senator Feingold. You do not think it would be a negative 
thing to have this requirement of consultation?
    Mr. Croteau. To have a consultation? I do not--
    Senator Feingold. A requirement that they have the 
consultation.
    Mr. Croteau. To have the Federal prosecutors required--if 
the Federal prosecutor will be involved, then, yes, I would 
definitely think they should be required at the local.
    Senator Feingold. What about you, Detective Word? Would you 
have a problem with this kind of requirement?
    Mr. Word. Senator, I do not. I have a U.S. Attorney in 
Maryland who is very engaging and works closely with each of 
the 24--at least in the State of Maryland, each of the 24 
Maryland State's attorneys. I do not have a problem with a 
requirement. I do think that recommendations should be made 
through the bill that this--that it be strongly worded that it 
be highly recommended that the U.S. Attorneys do, if not 
required. I do not have a problem. We do have, like I said, a 
very engaging U.S. Attorney in Mr. Rosenstein, and we have not 
had those problems nor seen those problems. A very close 
working relationship with our U.S. Attorney's Office.
    Senator Feingold. Very good. Thanks.
    Mr. Robinson and Mr. Croteau, your organizations both work 
directly with young people, so you may be able to provide the 
best perspective on this question. I would like to talk to you 
about the implications of sentencing a minor to life in prison 
in the Federal system where there is no opportunity for parole. 
The Supreme Court has acknowledged that an adolescent's 
culpability or blameworthiness may be ``diminished to a 
substantial degree by reason of youth or immaturity.'' That 
statement was made in the context of whether it was cruel and 
unusual punishment to execute individuals who have committed a 
capital crime while adolescents, but it seems to me that the 
same principle could apply more broadly.
    Do you think it is advisable to sentence individuals under 
the age of 18 to life without the possibility of parole? Mr. 
Robinson.
    Mr. Robinson. Senator Feingold, with my expertise in 
working with young people, the age of 18 would be too high to 
sentence somebody for life. I would have it go a lot lower. If 
we are going to--18 and over, maybe 20, because I think that 
certain young people who have committed certain crimes 
potentially should go, but then there is also, I think, a case-
by-case piece that we should go by around that. And if I am 
considered an expert in youth development, my primary expertise 
is in prevention and having young people not get anywhere near 
that type of situation that you brought to my attention. So I 
would probably not be the--I am not a prosecutor, so I would 
not be the best person to ask that question.
    Senator Feingold. Mr. Croteau?
    Mr. Croteau. In my experiences working with young people, 
absolutely I would be opposed to it. I think there is too much 
potential in young people. Obviously, there is an absolute role 
for enforcement and prosecution to the fullest. But I think 
when that happens blanketly, if it is a blanket, across-the-
board prosecution, then we lose the possibility of having young 
people who have had experiences, whether it be gang 
involvement--and, again, it depends on the crime because I 
think my concerns were also around the broad array of crimes 
that now fell into this new crime bill. And potentially you can 
go away for certain crimes that you would go away for life that 
you would not have thought of before. And if that is the case, 
you risk losing people, whether it be, like--people that we 
know on the street that are doing amazing work now, having come 
out of prison after being there for 7 years and who can now be 
really the ones who are relating to young people on the 
streets, and they are brokering peace and they are creating 
change. And you lose that no matter what. Blanketly, you lose 
that opportunity.
    Senator Feingold. Thank you. Thank you all for your 
answers.
    I thank the Chairwoman.
    Senator Feinstein. Thank you very much.
    I just wanted to address one question as Senator Feingold 
is leaving. The problem with consultation is the Department of 
Justice, who has never agreed to a statutory consultation 
amendment. I have no problem with it. I think there should be. 
Whether we lose some of our Republican colleagues, I mean, we 
have worked so hard and so long to get a bill that can cross 
the aisle on both sides that it is difficult. But this, I 
understand, is the problem with a statutory requirement for 
consultation, that it is precedent setting.
    Senator Feingold. Well, I understand the desire, obviously, 
Madam Chair, to pass a bill, but it strikes me as odd that that 
would be a concern of the other party to not have consultation 
with local officials about something like this. You know, those 
are strong answers from these folks. You obviously recognize--
    Senator Feinstein. Well, they are the locals, and the Feds 
like to keep their biceps flexed. But I am happy to look 
further into it.
    I wanted to just suggest one thing by way of ending this. 
On page 27 of the bill begins the High-Intensity Gang Areas, 
and it goes on for about 10 pages. It is a relatively easy 
read. By that I mean it does not refer to other statutes. What 
I would like to ask everybody to do, if you would, is take a 
look at it and see how the two might be better integrated. I 
agree with you, Detective, we do not want to reinvent the 
wheel. Let us use the wheel that is there as effectively as we 
possibly can. So I would be interested from you, from Mr. Fox, 
from anybody, in some additional suggestions.
    With that, let me thank you all, particularly those of you 
who have come from a distance. It is really appreciated. And to 
our victim, let me just once again extend our heartfelt 
sympathy, and I hope you will get some satisfaction when we can 
pass this bill. So thank you very much.
    We will keep the hearing record open for the purpose of 
written questions for 1 week.
    The hearing is adjourned.
    [Whereupon, at 11:50 a.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]
[GRAPHIC] [TIFF OMITTED] 43451.001

[GRAPHIC] [TIFF OMITTED] 43451.002

[GRAPHIC] [TIFF OMITTED] 43451.003

[GRAPHIC] [TIFF OMITTED] 43451.004

[GRAPHIC] [TIFF OMITTED] 43451.005

[GRAPHIC] [TIFF OMITTED] 43451.006

[GRAPHIC] [TIFF OMITTED] 43451.007

[GRAPHIC] [TIFF OMITTED] 43451.008

[GRAPHIC] [TIFF OMITTED] 43451.009

[GRAPHIC] [TIFF OMITTED] 43451.010

[GRAPHIC] [TIFF OMITTED] 43451.011

[GRAPHIC] [TIFF OMITTED] 43451.012

[GRAPHIC] [TIFF OMITTED] 43451.013

[GRAPHIC] [TIFF OMITTED] 43451.014

[GRAPHIC] [TIFF OMITTED] 43451.015

[GRAPHIC] [TIFF OMITTED] 43451.016

[GRAPHIC] [TIFF OMITTED] 43451.017

[GRAPHIC] [TIFF OMITTED] 43451.018

[GRAPHIC] [TIFF OMITTED] 43451.019

[GRAPHIC] [TIFF OMITTED] 43451.020

[GRAPHIC] [TIFF OMITTED] 43451.021

[GRAPHIC] [TIFF OMITTED] 43451.022

[GRAPHIC] [TIFF OMITTED] 43451.023

[GRAPHIC] [TIFF OMITTED] 43451.024

[GRAPHIC] [TIFF OMITTED] 43451.025

[GRAPHIC] [TIFF OMITTED] 43451.026

[GRAPHIC] [TIFF OMITTED] 43451.027

[GRAPHIC] [TIFF OMITTED] 43451.028

[GRAPHIC] [TIFF OMITTED] 43451.029

[GRAPHIC] [TIFF OMITTED] 43451.030

[GRAPHIC] [TIFF OMITTED] 43451.031

[GRAPHIC] [TIFF OMITTED] 43451.032

[GRAPHIC] [TIFF OMITTED] 43451.033

[GRAPHIC] [TIFF OMITTED] 43451.034

[GRAPHIC] [TIFF OMITTED] 43451.035

[GRAPHIC] [TIFF OMITTED] 43451.036

[GRAPHIC] [TIFF OMITTED] 43451.037

[GRAPHIC] [TIFF OMITTED] 43451.038

[GRAPHIC] [TIFF OMITTED] 43451.039

[GRAPHIC] [TIFF OMITTED] 43451.040

[GRAPHIC] [TIFF OMITTED] 43451.041

[GRAPHIC] [TIFF OMITTED] 43451.042

[GRAPHIC] [TIFF OMITTED] 43451.043

[GRAPHIC] [TIFF OMITTED] 43451.044

[GRAPHIC] [TIFF OMITTED] 43451.045

[GRAPHIC] [TIFF OMITTED] 43451.046

[GRAPHIC] [TIFF OMITTED] 43451.047

[GRAPHIC] [TIFF OMITTED] 43451.048

[GRAPHIC] [TIFF OMITTED] 43451.049

[GRAPHIC] [TIFF OMITTED] 43451.050

[GRAPHIC] [TIFF OMITTED] 43451.051

[GRAPHIC] [TIFF OMITTED] 43451.052

[GRAPHIC] [TIFF OMITTED] 43451.053

[GRAPHIC] [TIFF OMITTED] 43451.054

[GRAPHIC] [TIFF OMITTED] 43451.055

[GRAPHIC] [TIFF OMITTED] 43451.056

[GRAPHIC] [TIFF OMITTED] 43451.057

[GRAPHIC] [TIFF OMITTED] 43451.058

[GRAPHIC] [TIFF OMITTED] 43451.059

[GRAPHIC] [TIFF OMITTED] 43451.060

[GRAPHIC] [TIFF OMITTED] 43451.061

[GRAPHIC] [TIFF OMITTED] 43451.062

[GRAPHIC] [TIFF OMITTED] 43451.063

[GRAPHIC] [TIFF OMITTED] 43451.064

[GRAPHIC] [TIFF OMITTED] 43451.065

[GRAPHIC] [TIFF OMITTED] 43451.066

[GRAPHIC] [TIFF OMITTED] 43451.067

[GRAPHIC] [TIFF OMITTED] 43451.068

[GRAPHIC] [TIFF OMITTED] 43451.069

[GRAPHIC] [TIFF OMITTED] 43451.070

[GRAPHIC] [TIFF OMITTED] 43451.071

[GRAPHIC] [TIFF OMITTED] 43451.072

[GRAPHIC] [TIFF OMITTED] 43451.073

[GRAPHIC] [TIFF OMITTED] 43451.074

[GRAPHIC] [TIFF OMITTED] 43451.075

[GRAPHIC] [TIFF OMITTED] 43451.076

[GRAPHIC] [TIFF OMITTED] 43451.077

[GRAPHIC] [TIFF OMITTED] 43451.078

[GRAPHIC] [TIFF OMITTED] 43451.079

[GRAPHIC] [TIFF OMITTED] 43451.080

[GRAPHIC] [TIFF OMITTED] 43451.081

[GRAPHIC] [TIFF OMITTED] 43451.082

[GRAPHIC] [TIFF OMITTED] 43451.083

[GRAPHIC] [TIFF OMITTED] 43451.084

[GRAPHIC] [TIFF OMITTED] 43451.085

[GRAPHIC] [TIFF OMITTED] 43451.086

[GRAPHIC] [TIFF OMITTED] 43451.087

[GRAPHIC] [TIFF OMITTED] 43451.088

[GRAPHIC] [TIFF OMITTED] 43451.089

[GRAPHIC] [TIFF OMITTED] 43451.090

[GRAPHIC] [TIFF OMITTED] 43451.091

[GRAPHIC] [TIFF OMITTED] 43451.092

[GRAPHIC] [TIFF OMITTED] 43451.093

[GRAPHIC] [TIFF OMITTED] 43451.094

[GRAPHIC] [TIFF OMITTED] 43451.095

[GRAPHIC] [TIFF OMITTED] 43451.096

[GRAPHIC] [TIFF OMITTED] 43451.097

[GRAPHIC] [TIFF OMITTED] 43451.098

[GRAPHIC] [TIFF OMITTED] 43451.099

[GRAPHIC] [TIFF OMITTED] 43451.100

[GRAPHIC] [TIFF OMITTED] 43451.101

[GRAPHIC] [TIFF OMITTED] 43451.178

[GRAPHIC] [TIFF OMITTED] 43451.179

[GRAPHIC] [TIFF OMITTED] 43451.102

[GRAPHIC] [TIFF OMITTED] 43451.103

[GRAPHIC] [TIFF OMITTED] 43451.104

[GRAPHIC] [TIFF OMITTED] 43451.105

[GRAPHIC] [TIFF OMITTED] 43451.106

[GRAPHIC] [TIFF OMITTED] 43451.107

[GRAPHIC] [TIFF OMITTED] 43451.108

[GRAPHIC] [TIFF OMITTED] 43451.109

[GRAPHIC] [TIFF OMITTED] 43451.110

[GRAPHIC] [TIFF OMITTED] 43451.111

[GRAPHIC] [TIFF OMITTED] 43451.112

[GRAPHIC] [TIFF OMITTED] 43451.113

[GRAPHIC] [TIFF OMITTED] 43451.114

[GRAPHIC] [TIFF OMITTED] 43451.115

[GRAPHIC] [TIFF OMITTED] 43451.116

[GRAPHIC] [TIFF OMITTED] 43451.117

[GRAPHIC] [TIFF OMITTED] 43451.118

[GRAPHIC] [TIFF OMITTED] 43451.119

[GRAPHIC] [TIFF OMITTED] 43451.120

[GRAPHIC] [TIFF OMITTED] 43451.121

[GRAPHIC] [TIFF OMITTED] 43451.122

[GRAPHIC] [TIFF OMITTED] 43451.123

[GRAPHIC] [TIFF OMITTED] 43451.124

[GRAPHIC] [TIFF OMITTED] 43451.125

[GRAPHIC] [TIFF OMITTED] 43451.126

[GRAPHIC] [TIFF OMITTED] 43451.127

[GRAPHIC] [TIFF OMITTED] 43451.128

[GRAPHIC] [TIFF OMITTED] 43451.129

[GRAPHIC] [TIFF OMITTED] 43451.130

[GRAPHIC] [TIFF OMITTED] 43451.131

[GRAPHIC] [TIFF OMITTED] 43451.132

[GRAPHIC] [TIFF OMITTED] 43451.133

[GRAPHIC] [TIFF OMITTED] 43451.134

[GRAPHIC] [TIFF OMITTED] 43451.135

[GRAPHIC] [TIFF OMITTED] 43451.136

[GRAPHIC] [TIFF OMITTED] 43451.137

[GRAPHIC] [TIFF OMITTED] 43451.138

[GRAPHIC] [TIFF OMITTED] 43451.139

[GRAPHIC] [TIFF OMITTED] 43451.140

[GRAPHIC] [TIFF OMITTED] 43451.141

[GRAPHIC] [TIFF OMITTED] 43451.142

[GRAPHIC] [TIFF OMITTED] 43451.143

[GRAPHIC] [TIFF OMITTED] 43451.144

[GRAPHIC] [TIFF OMITTED] 43451.145

[GRAPHIC] [TIFF OMITTED] 43451.146

[GRAPHIC] [TIFF OMITTED] 43451.147

[GRAPHIC] [TIFF OMITTED] 43451.148

[GRAPHIC] [TIFF OMITTED] 43451.149

[GRAPHIC] [TIFF OMITTED] 43451.150

[GRAPHIC] [TIFF OMITTED] 43451.151

[GRAPHIC] [TIFF OMITTED] 43451.152

[GRAPHIC] [TIFF OMITTED] 43451.153

[GRAPHIC] [TIFF OMITTED] 43451.154

[GRAPHIC] [TIFF OMITTED] 43451.155

[GRAPHIC] [TIFF OMITTED] 43451.156

[GRAPHIC] [TIFF OMITTED] 43451.157

[GRAPHIC] [TIFF OMITTED] 43451.158

[GRAPHIC] [TIFF OMITTED] 43451.159

[GRAPHIC] [TIFF OMITTED] 43451.160

[GRAPHIC] [TIFF OMITTED] 43451.161

[GRAPHIC] [TIFF OMITTED] 43451.162

[GRAPHIC] [TIFF OMITTED] 43451.163

[GRAPHIC] [TIFF OMITTED] 43451.164

[GRAPHIC] [TIFF OMITTED] 43451.165

[GRAPHIC] [TIFF OMITTED] 43451.166

[GRAPHIC] [TIFF OMITTED] 43451.167

[GRAPHIC] [TIFF OMITTED] 43451.168

[GRAPHIC] [TIFF OMITTED] 43451.169

[GRAPHIC] [TIFF OMITTED] 43451.170

[GRAPHIC] [TIFF OMITTED] 43451.171

[GRAPHIC] [TIFF OMITTED] 43451.172

[GRAPHIC] [TIFF OMITTED] 43451.173

[GRAPHIC] [TIFF OMITTED] 43451.174

[GRAPHIC] [TIFF OMITTED] 43451.175

[GRAPHIC] [TIFF OMITTED] 43451.176

[GRAPHIC] [TIFF OMITTED] 43451.177

                                 <all>

</pre></body></html>
